     Office
Inspector General  of



                                                      U.S. Department of the Interior



                                 SEMIANNUAL
  Highlights                       REPORT
Assessment of DOI Law                  U.S. DEPARTMENT OF THE INTERIOR

Enforcement Exposes                               OFFICE OF INSPECTOR GENERAL




Long-Standing Weaknesses
(page 3)                                                                                                                                                    U.S. Department of the Interior
                                                                                                                                                                Office of Inspector General

                                                                                                                                                                                        Advisory Report


                                                                                                                                                        DEPARTMENT OF THE INTERIOR
                                                                                                                                                     INTEGRATED CHARGE CARD PROGRAM


Tribal Recognition
Decisions Called Into      DISQUIETING STATE OF DISORDER:
                           AN ASSESSMENT OF DEPARTMENT OF                                 THE     INTERIOR
Question                   LAW ENFORCEMENT


(page 3)                   No. 2002-I-0014                                                                        January 2002



                                                                                    U.S. Department of the Interior
                                                                                       Office of Inspector General

                                                                                                               Investigative Report

                                                                                                                                              No. 2002-I-0011                       DECEMBER 2001


Inadequate Controls                                                                                                  Allegations
                                                                                                                                                                   U.S. Department of the Interior
Have Allowed Abuse by                                                                                                   Involving
                                                                                                                   Irregularities
                                                                                                                                                                       Office of Inspector General
                                                                                                                     in theTribal
Purchase Cardholders                                                                                               Recognition
                                                                                                                         Process

(page 8)                                                                                                                     and
                                                                                                                      Concerns
                                                                                                                      Related to
                                                                                                                                                                                      MAINTAINING THE
                                                                                                                                                                DEPARTMENT OF THE INTERIOR ’S FACILITIES,
                                                                                                                                                                             A FRAMEWORK FOR ACTION
                                                                                                                Indian Gaming




Department-wide                                    A Report Initiated at the Request of Secretary Gale Norton and Congressman Frank Wolf




Maintenance Review                           Report No. 01-I-00329                                                            February 2002




Provides Blueprint for
Change                                                                                                                                                  No. 2002-I-0008                  DECEMBER 2001

(page 8)

                                                                                                                                                                 April 2002
                                         Return to
                                     Table of Contents
Message from the Inspector General




            I am pleased to present the results of Office of Inspector General (OIG)
    activities during the period October 1, 2001- March 31, 2002. This Semiannual Report
    to the Congress reflects the outcomes of our continued commitment to assisting the
    Department of the Interior (the Department or DOI) in creating solutions to its most
    serious management challenges and promoting excellence in the programs, operations
    and management of the Department.

           Over the last six months, we completed and published results of several
    high-profile reviews. Our comprehensive Department-wide reviews of law
    enforcement and maintenance issues provided the Department with blueprints to
    address long-standing management problems in these critical arenas. Our audits on
    information security and the Department's government purchase card program, along
    with our investigation into allegations involving Tribal Recognition and Indian Gaming
    received immediate response.

           We also report on several disturbing trends this reporting period.

            First, the extensive misuse of government computers by DOI employees to view
    and download pornography, including child pornography, has prompted us to develop
    written guidance, which we provided to the Department's Chief Information Officer, on
    how to identify and respond when these situations are suspected. Included with the
    guidance was a training syllabus, together with our offer to provide training to Systems
    Administrators and other Departmental staff on the proper way to handle these
    troubling matters. We intend to work closely with the Department to aggressively
    pursue this effort to detect this egregious misuse and convey a message to all DOI
    employees that such behavior will not be tolerated, and will, in fact, be prosecuted
    when appropriate.

             Second, following years of frustration over the lack of responsiveness to our
    audit findings in the Insular Areas, we undertook an historic review of the often
    reported weaknesses plaguing the Insular Area governments. Based on this review and
    findings in audits completed this reporting period, we must reluctantly conclude that the
    state of financial affairs in the Insular Areas is disturbing, and we call on the Depart-
    ment and other Federal agencies that provide funding to the Insular Areas to take
    aggressive action to address these longstanding concerns.




 Semiann ual R
 Semiannual  Reepor
                portt to the Cong
                             Congrr ess:           October 1, 2001 - Mar
                                                                     Marcch 31, 2002
                                           Return to
                                       Table of Contents
Message from the Inspector General (continued)




                  Finally, we report on an alarming number of cases of fraud and
          embezzlement in programs operated by the Bureau of Indian Affairs (BIA) and by
          tribes. Unfortunately, the breadth of these crimes does not lead to a simple
          solution. Nonetheless, we will continue to pursue such cases with a view toward
          working with the Department to craft solutions to this widespread epidemic.




                                           Earl E. Devaney
                                           Inspector General




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess:          October 1, 2001 - Mar
                                                                     Marcch 31, 2002
                                                           Return to
                                                       Table of Contents
                                                                                                                            Contents

                                                                                                                                     Page
Statistical Highlights .............................................................................................................. ii
   Organization ......................................................................................................................1
   Mission and Top Management Challenges .......................................................................2
Significant Investigations and Audit Activities ......................................................................3
   Department of the Interior..................................................................................................3
   Bureau of Indian Affairs...................................................................................................10
   Bureau of Land Management ...........................................................................................15
   Bureau of Reclamation .....................................................................................................16
   Fish and Wildlife Service .................................................................................................17
   Insular Areas.....................................................................................................................19
   Minerals Management Service .........................................................................................22
   National Park Service .......................................................................................................23
   Office of Special Trustee..................................................................................................25
   U.S. Geological Survey ............................................................................................................ 26

Appendices

  1 - Summary of Audit and Related Activities from October 1, 2001 through
      March 31, 2002.............................................................................................................27
  2 - Reports Issued or Processed and Indirect Cost Proposals Negotiated
      During the 6-Month Period ended March 31, 2002 ......................................................28
        - Internal Reports ......................................................................................................28
        - Contract Audits ......................................................................................................30
        - Single Audits..........................................................................................................30
        - Indirect Cost Proposals ..........................................................................................37
  3 - Monetary Impact of Audit Activities from October 1, 2001 through
      March 31, 2002.............................................................................................................48
  4 - Non-Federal Funding Included in Monetary Impact of Audit Activities
      During the 6-Month Period ended March 31, 2002......................................................49
  5 - Audit Resolution Activities...........................................................................................50
        - Table I - Inspector General Reports with Questioned Costs..................................50
        - Table II - Inspector General Reports with Recommendations that
           Funds be Put to Better Use ....................................................................................51
        - Table III - Inspector General Reports with Lost or Potential
          Additional Revenues .............................................................................................52
  6 - Summary of Audit Reports over 6 Months Old Pending Management Decisions .......53
        - Internal Audits........................................................................................................53
        - Contract and Grant Audits .....................................................................................54
        - Single Audits..........................................................................................................55
  7 - Summary of Internal Audit Reports over 6 Months Old Pending
      Corrective Action .........................................................................................................58
  8 - Summary of Insular Area Reports over 6 Months Old .................................................62
        - Internal Audits........................................................................................................62
        - Single Audits..........................................................................................................65

Semiann ual R
Semiannual  Reepor
               portt to the Cong
                            Congrr ess:                                    October 1, 2001 - Mar
                                                                                             Marcch 31, 2002
                                      i
                                                              Return to
                                                          Table of Contents
Statistical Highlights



Audit Activities and Impacts
  Reports Issued ........................................................................................................................ 26
    - Internal Audits ........................................................................................................ 23
     - Contract and Grant Audits ........................................................................................3
  Single Audits Processed....................................................................................................... 234
  Indirect Cost Proposals Negotiated...................................................................................... 417
  Total Monetary Impact.................................................................................................... $143.1
     (Dollar Amounts in Millions)
       - Questioned Costs ................................................................................................. $ 11.9
       - Recommendations that Funds be Put to Better Use ............................................ $120.5
       - Lost or Potential Additional Revenues................................................................ $ 10.7
     Internal Audit Recommendations Made .............................................................................. 134
     Internal Audit Recommendations Resolved ......................................................................... 92

Investigative Activities
   Cases Closed this Period ...................................................................................................... 113
   New Cases Opened .............................................................................................................. 108
   Hotline Complaints/Inquiries Received ............................................................................. 1530

Criminal Investigative Activities
   Indictments/Informations ....................................................................................................... 25
   Convictions ............................................................................................................................ 11
   Sentencings .............................................................................................................................. 9
     - Jail ......................................................................................................................... 109 mos.
     - Probation/Supervised Release ............................................................................... 252 mos.
   Criminal Judgments/Restitutions ................................................................................ $490,092
   Criminal Matters Referred for Prosecution this Period ......................................................... 31
   Criminal Matters Declined this Period................................................................................... 15

Civil Investigative Activities
   Civil Referrals .......................................................................................................................... 2
   Civil Recoveries (in dollars) .................................................................................. $21,500,000
   Civil Declinations .................................................................................................................... 2

Administrative Investigative Activities
  Administrative Actions .......................................................................................................... 26
  Administrative Recoveries/Restitutions ....................................................................... $12,225
  Contract Terminations.............................................................................................................. 2
  Contractor Debarments ............................................................................................................ 2
  Departmental Cost Savings ...................................................................................... $1,290,478




    Semiann ual R
    Semiannual  Reepor
                   portt to the Cong
                                Congrr ess: October 1, 2001 - Mar
                                                              Marcch 31, 2002
                                          ii
                                        Return to
                                    Table of Contents
               Office of Inspector General, Department of the Interior
                                                                        O rganization


                                      Inspector General


                                            Deputy
                                       Inspector General




          Chief of Staff


                                                                         Office of
                                                                      General Counsel

              Chief
        Information Officer




Assistant Inspector     Assistant Inspector     Assistant Inspector     Assistant Inspector
   General for             General for             General for             General for
      Audits           Management & Policy      Program Integrity         Investigations

  Deputy AIG                  Deputy AIG           Deputy AIG              Deputy AIG




Semiann ual R
Semiannual  Reepor
               portt to the Cong
                            Congrr ess: October 1, 2001 - Mar
                                                          Marcch 31, 2002
                                      1
                                                    Return to
                                                Table of Contents
Introduction



                                                        Mission
              The mission of the Office of Inspector General is to promote excellence in
      the programs, operations and management of the Department of the Interior.

                                                 Responsibilities
             The OIG is responsible for independently and objectively identifying risks
      and vulnerabilities that directly impact, or could impact, the Department’s ability
      to accomplish its mission. We are required to keep the Secretary and the
      Congress fully and currently informed about problems and deficiencies relating to
      the administration of Departmental programs and operations. Effective
      implementation of this mandate addresses the public’s demand for greater
      accountability in the administration of Government programs and operations and
      the demand for programs that work better, cost less, and get the results Americans
      want.

                                                       Activities
              The OIG accomplishes its mission through conducting audits, evaluations,
      and investigations relating to programs and operations of the Department. The
      OIG has reorganized and re-engineered its internal operations to provide higher
      quality products and services in areas that are of the highest priority and provide
      the greatest return on investment.



                    TOP MA NA GEMENT CHA LLENGES OF THE
                         DEPARTMENT OF THE INTERIOR
                                              As Reported to the Congress

     •   Maintenance of Facilities and Cultural Resources*
     •   Procurement/Contracts/Grants
     •   Health and Safety
     •   Information Technology
     •   Resource Protection and Restoration
     •   Responsibilities to American Indians and Insular Areas
     •   Financial Management
     •   Revenue Collections
     •   Government Performance and Results Act

     *Although Cultural Resources were contemplated when the Top Management challenges were published, they were
     not explicitly included. Cultural Resources are added here for clarity.




 Semiann ual R
 Semiannual  Reepor
                portt to the Cong
                             Congrr ess: October 1, 2001 - Mar
                                                           Marcch 31, 2002
                                       2
                                    Return to
                                Table of Contents
                       Significant Audit Activities and Investigations
                                                   Department of the Interior
                               The OIG recently completed an assessment of the Department's
                      law enforcement programs. Disquieting State of Disorder: An
                      Assessment of Department of the Interior Law Enforcement revealed
                      that the Bureaus have had a long history of providing minimum oversight
                      and direction of their law enforcement programs. Many law
                      enforcement offices are directed by managers with limited or no law
                      enforcement expertise and the autonomy associated with decentralized
                      law enforcement management has led to inconsistent priorities, lack of
                      coordination and employee frustration.
Assessment of
DOI Law                       The Assessment Team traveled to 35 field locations and
Enforcement           conducted more than 120 interviews with law enforcement officers,
Exposes Long-         supervisors, managers and senior Department officials concerning their
Standing              law enforcement operations. The assessment concluded with 25
                      recommendations to improve the leadership, organization, control, and
Weaknesses
                      accountability of the Department's law enforcement programs. The
                      results of the assessment have been presented to the Secretary who
                      remains committed to ensuring that the highest law enforcement
                      standards are maintained within the Department. Several of the most
                      significant recommendations have already been implemented, such as
                      the creation of the Office of Law Enforcement and Security and the
                      establishment of a Deputy Assistant Secretary position to oversee and
                      coordinate the Department's law enforcement and security programs. A
                      Department Team has been put together and will meet in May to further
                      advise the Secretary about implementation of our recommendations.


Tribal                         At the request of Secretary Norton and Congressman Frank
Recognition           Wolf, an investigation was conducted to address several last-minute
Decisions Called      tribal recognition decisions and issues related to Indian Gaming made
                      by Clinton Administration political appointees. The investigation
Into Question         determined the following:

                      ¾       Six last-minute tribal recognition decisions were made by
                      political appointees of the Clinton Administration that were contrary to
                      the recommendations of career staff.

                      ¾      The former Bureau of Indian Affairs (BIA) Deputy Assistant
                      Secretary signed decision documents after leaving office.

                      ¾       Almost all tribes engaged in Class III gaming are utilizing
                      consulting agreements to circumvent the regulatory and enforcement
                      authority vested in the National Indian Gaming Commission.
  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        3
                                         Return to
                                     Table of Contents
Significant Audit Activities and Investigations
Department of the Interior
Tribal                           As a result of the investigation by our Office of Program Integrity,
Recognition             three criminal violations were presented to the U.S. Attorneys Office for
Decisions Called Into
Question
                        prosecution. They were declined in lieu of administrative action, which is
(continued)             pending on the employees who remain in Federal service. All six tribal
                        decisions have been or are being reviewed by the current administration in
                        light of established recognition criteria.


Background                      The OIG requested that the Department's Office of Law Enforcement
and Security            and Security conduct a risk assessment of the Bureau of Reclamation (BOR)
                        Water Quality Improvement Center Training Facility in Yuma, Arizona, after
Checks
                        learning that the facility accepted students, U.S. citizens and foreign
Lacking at              nationals, without any form of background investigations or security checks.
BOR Water               The facility has numerous chemicals on-hand, which could be used in the
Quality                 making of bombs. In light of recent terrorist attacks, we advocated a
Improvement             proactive approach to prevention and security of our facilities. The BOR
Center                  conducted a prompt risk assessment of the facility. Their comprehensive
                        report identified a number of vulnerabilities and offered solutions to many
Training
                        of the problems.
Facility in
Yuma, Arizona                  We have asked the Department to follow up on three issues, which
                        we believe merit further inquiry.

OIG Requests            ¾        The report suggested that the training certificate program be moved
Assessment              off-site. Without quantifying the positive aspects and benefits the
                        Government and country derive from the studies and research conducted at
                        the facility, alternative means may satisfy security concerns without
                        removing the program. For example, background investigations as a part of
                        basic security screening and limiting physical access to certain areas via
                        security devices may suffice.

                        ¾        Although the report acknowledged that two students who failed to
                        comply with a security policy were denied access to the facility, it was
                        silent regarding any further investigation into the reason they failed to
                        complete the required documentation.

                        ¾      The report did not address the existence of security clearances or
                        the proper security levels for the 209 Federal employees and 63 contract
                        employees, or whether the clearances are current.




   Semiann ual R
   Semiannual  Reepor
                  portt to the Cong
                               Congrr ess: October 1, 2001 - Mar
                                                             Marcch 31, 2002
                                         4
                                   Return to
                               Table of Contents
                       Significant Audit Activities and Investigations

                                                  Department of the Interior
In Response to                Following a sudden increase in reported instances of
Widespread Misuse     Department employees using government-owned computers to access
                      child pornography Internet Web sites, and one instance of a DOI
of Government
                      employee enticing a child to engage in sex, the Office of Investigations
Computers OIG         issued guidance to the Department's Chief Information Officer on how to
Issues Child          identify and respond when these situations are suspected. Included with
Pornography           the guidance was a syllabus for training by our investigators to Systems
Identification and    Administrators and other Departmental staff who are confronted with
Response              these troubling allegations. While most instances of inappropriate use
                      of agency computers result in disciplinary action by agency
Guidance to the
                      management, the OIG is particularly concerned about child
Department            pornography, a Federal criminal offense. Child pornography is not a
                      victimless crime. As long as there is a demand for child pornography,
                      children will be exploited and abused for this purpose. Our office has
                      initiated many investigations pertaining to the improper access and/or
                      downloading of child pornographic material using government
                      computers, which led us to develop this important training tool.

                             The following cases in which administrative action was taken,
                      prosecution was sought and declined. In instances where prosecution
                      was pursued, the summary is found in the relevant Bureau section.

                      ¾      A Fish and Wildlife Service (FWS) employee resigned after it
                      was determined that while using a government computer during business
                      hours he had accessed 106 Web sites containing nude adolescent girls
                      and pornographic stories involving children.

                      ¾      A BIA employee resigned in lieu of termination after it was
                      discovered that he was using a government computer to access
                      numerous Web sites containing pornographic material, including
                      pornographic images of young girls.

                      ¾      Administrative action was taken on a National Park Service
                      (NPS) employee for downloading child pornography on his govern-
                      ment-owned computer.

                      ¾       Administrative action was taken on an FWS employee following
                      allegations that he made sexually offensive remarks to fellow
                      employees, showed nude photographs and computerized images to
                      co-workers, and used his government-owned computer to access child
                      pornography Web sites.


  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        5
                                      Return to
                                  Table of Contents
Significant Audit Activities and Investigations
Department of the Interior
In Response to       ¾       Administrative action was taken on a Bureau of Land Management
Widespread Misuse    (BLM) employee after it was discovered that on a daily basis he accessed
of Government        numerous child and adult pornography Web sites, which depicted, among
Computers OIG        other things, incest and bestiality.
Issues Child
Pornography
                     ¾       Administrative action was taken on an NPS employee for using his
Identification and
Response
                     government-owned computer to access Web sites depicting homosexual and
Guidance to the      child pornography images.
Department
(continued)          ¾      Administrative action was taken on a BLM employee for using his
                     government-owned computer to access Web sites depicting child
                     pornography images.

                     ¾       Two cases were initiated where it was believed that BLM
                     employees were accessing child pornography on government-owned
                     computers. At the time, separate Internet Protocol (IP) addresses were not
                     assigned to each computer, and as a result, it was impossible to determine
                     the identity of the offenders. After learning of the problem, the BLM took
                     immediate steps to assign IP addresses to each computer.


DOI Receives                  The independent certified public accounting firm of KPMG LLP
Unqualified          (KPMG), under contract with the Office of Inspector General, rendered an
Opinion, But         unqualified opinion on the consolidated financial statements of the Depart-
                     ment of the Interior for fiscal year 2001. KPMG also rendered unqualified
Long Standing        opinions on the financial statements of eight of the nine DOI Bureaus and
Material             offices.
Weaknesses
Remain                      KPMG rendered unqualified opinions on the balance sheet and
                     statement of custodial activity for the Minerals Management Service
                     (MMS) but did not express an opinion on other MMS financial statements.
                     KPMG was not able to express an opinion on the financial statements of the
                     U.S. Geological Survey (USGS).

                             Although DOI and eight of the nine Bureaus and offices received
                     unqualified audit opinions, longstanding weaknesses related to internal
                     controls and compliance with laws and regulations continue to be
                     identified. It is imperative that DOI expeditiously correct these weaknesses
                     to ensure that future financial statements are timely and accurate. To
                     address these longstanding weaknesses the Department, OIG and KPMG
                     are meeting with each Bureau and office. Based on lessons learned, these
                     meetings have identified valuable improvements to the audit process and
                     financial statement preparation process. The Bureaus and offices are
                     working aggressively to implement these improvements.
  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        6
                                    Return to
                                Table of Contents
                       Significant Audit Activities and Investigations

                                                   Department of the Interior
DOI Receives                 Significant weaknesses were identified in the following areas:
Unqualified
Opinion, But Long
Standing Material
                      ¾       General and Application Controls Over Financial
Weaknesses            Management Systems. DOI's lack of adequate information technology
Remain                security and general controls to protect financial information systems
(continued)           could adversely affect its ability to prevent unauthorized changes to
                      financial information, control electronic access to sensitive information
                      and protect information resources.

                      ¾        Timeliness of Transaction Entry and Reconciliation. DOI
                      spent significant time and resources at year-end recording transactions,
                      analyzing financial records and reconciling amounts as a result of its
                      failure to (1) consistently and timely record financial transactions and
                      analyze financial records, and (2) consistently and routinely reconcile
                      general ledger accounts to subsidiary ledgers or other supporting
                      documentation.

                      ¾       Controls Over Undelivered Orders and Accruals. DOI did
                      not consistently liquidate obligations and accrue liabilities for goods
                      and services received prior to year-end or timely de-obligate funds no
                      longer needed.

                      ¾       Controls Over Property, Plant and Equipment. Weaknesses
                      were reported in the areas of acquisitions and disposals; reconciliation
                      of subsidiary ledgers to general ledgers; inventory of property, land and
                      land rights; recording property transfers and depreciation; and
                      accounting for construction in progress.

                      ¾       Reconciliation of Intra-Departmental and Intra-
                      Governmental Transactions. DOI did not begin reconciling intra-
                      departmental and intra-governmental transactions until after year-end,
                      requiring significant time and resources to reconcile intra-departmental
                      activity to an acceptable amount. DOI was unable to reconcile intra-
                      governmental balances.

                      ¾      Trust Fund Management Controls. DOI did not have adequate
                      procedures and controls to ensure that Indian trust fund activity and
                      balances were recorded properly or timely.




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        7
                                    Return to
                                Table of Contents
Significant Audit Activities and Investigations
Department of the Interior
Inadequate                 In our continuing efforts to prevent credit card abuse, we reviewed
Controls Have      a sample of DOI purchase cardholders and found that 14 percent of these
                   cardholders had abused their card privileges by purchasing personal items
Allowed Abuse
                   and having the Government pay for them. These abuses occurred because
by Purchase        DOI had not established an adequate control environment when instituting
Cardholders        the integrated charge card program. The abuses included:

                   ¾     The use of credit cards to pay monthly phone bills, purchase
                   household furnishings and jewelry, or pay for repairs to personal vehicles.

                   ¾      The use of convenience checks to make mortgage payments.

                   ¾      The use of fraudulent invoices to pay monthly rent or convert cash
                   advances, which are billed to the individual, to centrally billed items,
                   which are billed directly to and paid for by the Government.

                           DOI and the affected Bureaus agreed to take corrective action on
                   our recommendations to ensure that (1) only an appropriate number of
                   employees have purchase authority on their charge cards, (2) credit limits
                   are periodically reviewed and adjusted, (3) reviewing officials are
                   designated and trained, (4) credit card receipts and invoices are maintained
                   and reviewed for appropriateness, and (5) ex-employee charge card
                   accounts are deactivated.



Department-wide            Reviews conducted by our office, the General Accounting Office,
Maintenance        and the Bureaus have revealed long-standing maintenance problems in the
Review Provides    Department for years. In fact, the lack of a comprehensive maintenance
                   management capability has been identified as a mission-critical material
Blueprint for      weakness in DOI. As of September 30, 2001, the reported maintenance
Change             backlog ranged from $8.1 to $11.4 billion.

                           At the request of the Department and the Office of Management and
                   Budget, we reviewed maintenance issues Department-wide and identified
                   key needed actions. We developed a broad framework of actions to build
                   on the positive changes already being implemented by the four Bureaus
                   reviewed (NPS, BLM, BIA, and FWS):

                   ¾      Appointing a Departmental Chief Maintenance Officer

                   ¾      Taking immediate steps to reduce the maintenance backlog

  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        8
                                   Return to
                               Table of Contents
                      Significant Audit Activities and Investigations
                                                  Department of the Interior
                     ¾      Managing facilities proactively

                     ¾      Establishing a single maintenance budget for DOI

                     ¾      Conducting standardized condition assessments

                     ¾      Implementing an integrated facilities management system

                             In the end, we provided the Department with a blueprint to
                     quickly reduce the backlog and develop a comprehensive, proactive and
                     reliable facilities maintenance managment program that will help
                     prevent recurrence of a deferred maintenance backlog.




Audit                        In the second of a series of reports on the implementation of OIG
Recommendations      audit recommendations, we reviewed nine recently closed
                     recommendations and found that four of the recommendations had not
Not Implemented      been fully implemented. DOI Management Control and Audit
as Reported          Follow-up officials concurred with our conclusions and reinstated all
                     four recommendations as unimplemented. One of the four
                     recommendations pertained to a Bureau material weakness, which also
                     was reinstated in part as a result of our review.




 Semiann ual R
 Semiannual  Reepor
                portt to the Cong
                             Congrr ess: October 1, 2001 - Mar
                                                           Marcch 31, 2002
                                       9
                                   Return to
                               Table of Contents
Significant Audit Activities and Investigations

Bureau of Indian Affairs
                              Three former employees of the Oglala Sioux Tribe were
                      sentenced in U.S. District Court, Rapid City, South Dakota, following
                      their convictions on four counts of embezzlement and one count of
                      conspiracy. Estelle Goings was the payroll supervisor for the Tribe.
                      She supervised her daughter, Vonnie Goings, who held several positions
                      in the Tribe's accounting office. Carol Vitalis was a payroll technician.
                      Estelle Goings and Carol Vitalis were both sentenced to 27 months of
                      imprisonment, Vonnie Goings was sentenced to 15 months of
Former Oglala         imprisonment, and they were each ordered to serve 24 months of
Sioux Tribal          supervised release. The Court also ordered that restitution in the
Employees             amount of $99,412 be paid jointly and severally by each of the
Sentenced in          defendants. Our Office of Investigations initiated this case when it was
Embezzlement          learned that between February 1996 and November 1999, the three
Scheme                women issued 362 illegal checks totaling $198,905 to themselves.




BIA Housing                   A Federal grand jury returned a four-count indictment charging
Specialist Indicted   that Marvin Beartusk, a BIA housing specialist in Montana, used a
                      government computer to access and download pornographic images of
on Receipt and
                      children. The indictment charged Beartusk with two felony counts of
Possession of         receipt of child pornography and two felony counts of possession of
Child                 child pornography. At his initial appearance in U.S. District Court,
Pornography           District of Montana, Beartusk entered a plea of not guilty to the charges.
                      Trial and administrative action are pending.


Three Indicted in             William A. Hacker, Terrance C. Walters, and Dennis Huber
Bribery Scheme        were indicted by a Federal grand jury in the District of South Dakota on
                      charges of bribery concerning programs receiving Federal funds.
                      Hacker, while on loan from the BIA to the Crow Creek Sioux Tribe
                      through an Intergovernmental Personnel Act agreement, allegedly
                      received an illicit payment of $24,750 in exchange for his involvement
                      in the placement of a $6.6 million bond obtained through the
                      Governmental Capital Corporation (GCC) with the Tribe. Walters, a
                      consultant for GCC and former BIA superintendent, allegedly paid
                      $1,000 to Hacker and $6,800 to Huber, Director, North Dakota/South
                      Dakota Indian Business Development Center, United Tribes Technical
                      College for their assistance in the placement of a $3.5 million bond
                      through the GCC to the Three Affiliated Tribes. The indictment charges
                      Walters with two counts of paying bribes and Hacker and Huber with
                      one count each for receiving bribes. Trial is pending.

  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        10
                                     Return to
                                 Table of Contents
                        Significant Audit Activities and Investigations

                                                        Bureau of Indian Affairs
Former                     A Federal grand jury in the District of New Mexico indicted Ronald
Pueblo of          D. Shutiva, former Governor of Pueblo of Acoma Tribe, on charges of
                   embezzling from the Sky City Casino, a business enterprise of the Tribe.
Acoma
                   The two-count indictment alleges that Shutiva requested money from the
Governor           general manager of the Sky City Casino to help him pay some personal
Indicted in        creditors. The Sky Casino general manager, Vernon Lowery, devised a plan
Casino Theft       to obtain the money for Shutiva by placing fictitious orders for slot machine
Case               parts from a gaming machine supplier in Las Vegas. Lowery would send the
                   supplier a Casino check as payment for the fake order. The supplier would
                   then deposit the Casino's check, but not supply the slot machine parts.
                   Rather, the supplier, in turn, wired a total of $8,000 to Shutiva's personal
                   creditors. Lowery was convicted and subsequently sentenced for his part in
                   a related investigation involving the theft of additional casino funds to eight
                   months of confinement and 36 months of supervised release. Trial for
                   Shutiva is pending.


Two Former                  A Federal grand jury in the District of Arizona returned an
BIA                indictment naming two former BIA employees on fraud charges for
Employees          allegedly skimming more than $60,000 from Indian education programs.
                   Alberta J. Bitsoi was employed at the BIA's Office of Indian Education
Indicted in
                   Programs. Rosalie B. Yazzie worked at the Seba Dalkai Boarding School.
Indian             According to the indictment, the women submitted false vouchers for
Education          stipend payments. Stipend payments are made to BIA employees for work
Fraud Case         that is performed above and beyond their tour of duty. Typically these
                   payments are paid for coaching a sport or sponsoring one of the school's
                   academic or social programs. Neither woman allegedly did any work to
                   earn the stipends. Yazzie is charged with taking more than $39,000 over a
                   three-year period. Bitsoi is charged with taking nearly $22,000 during the
                   same time period. Trial is pending.


High School                Geraldine Arviso, a bookkeeper with the Wingate Board of
Bookkeeper         Education who was accused of embezzling more than $66,000 of Federal
                   monies intended for Wingate High School, pled guilty in U.S. District Court
Admits to Theft
                   of New Mexico. From 1997 through 2001, Arviso cashed checks she
                   illegally wrote on the Wingate business account and used the money for
                   personal gain. Sentencing is pending.




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        11
                                   Return to
                               Table of Contents
Significant Audit Activities and Investigations
Bureau of Indian Affairs
Individual Indian             The Office of Trust Fund Management (OTFM), Office of the
Trust Fund            Special Trustee for American Indians reported that BIA employees
                      were improperly opening private secondary bank accounts on behalf of
Monies Inquiry        individual Indians to deposit monies received from other Federal
Leads to Greater      agencies such as the Social Security Administration and Veterans
Oversight by BIA      Affairs. Our investigation revealed that the BIA was, in fact,
                      mishandling and improperly diverting Individual Indian Monies (IIM) to
                      these secondary accounts. We concluded, however, that the BIA
                      employees involved misunderstood a portion of the Code of Federal
                      Regulations concerning "Payments by Other Federal Agencies." A
                      comprehensive review of these secondary bank accounts determined
                      that no funds were personally diverted or misused. Nonetheless, the
                      ramifications of this practice raised concerns about the accountability of
                      IIM. In response to a management implication memorandum issued by
                      the Office of Investigations, the Deputy Commissioner of Indian Affairs
                      advised that in accordance with our recommendations, the BIA would
                      continue to work closely with the OTFM to educate BIA employees
                      about regulations and proper procedures; complete a new Distribution
                      Plan form for use in the field; establish a work group to develop a joint
                      OTFM/BIA IIM handbook; and work closely with any office that
                      handles trust activities, including the social services staff work
                      associated with supervised IIM cases.


Former Pilot                   Charles Kirkpatrick, former pilot for the Seminole Tribe of
of the                Florida, was sentenced in U.S. District Court, Southern District of
Seminole Tribe        Florida, to 13 months of imprisonment and 12 months of supervised
                      release for his role in a scheme to embezzle tribal funds. As reported in
of Florida            our October 2001 Semiannual Report, Kirkpatrick was convicted on
Sentenced             charges that he arranged to purchase various aircraft on behalf of the
                      Tribe. After negotiating a purchase price with a broker, Kirkpatrick
                      artificially increased the purchase price of each aircraft by several
                      hundred thousand dollars and took a commission from the difference.


Tribal                        Rod Highelk, Compliance Officer, White Earth Band of
Compliance            Chippewa Indians, White Earth, Minnesota, was sentenced in U.S.
                      District Court for the District of Minnesota, following his guilty plea to
Officer
                      charges against him in a 16-count indictment by a Federal grand jury.
Sentenced in          The indictment alleged that in just over a year Highelk embezzled more
Embezzlement          than $70,000 from the Tribal Employment Rights Office of the Tribe.
Scheme                Highelk was sentenced to 12 months of imprisonment, 3 years of
                      supervised release and ordered to pay restitution in the amount of
                      $70,300.

  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        12
                                     Return to
                                 Table of Contents
                        Significant Audit Activities and Investigations
                                                        Bureau of Indian Affairs
Tribal Loan                The Tribal Loan Program of the Lac Vieux Desert Band of Lake
Program Falls      Superior Chippewa Indians of Watersmeet, Michigan, made over a million
                   dollars in loans to 166 individuals, half of whom defaulted on the loans. To
Prey to
                   date, the investigation has produced the following results:
Unscrupulous
Tribal             ¾      John McGeshick, Sr., former Tribal Chairman, was indicted by a
Borrowers          Federal grand jury in the Western District of Michigan and pled guilty to
                   charges of embezzlement relating to more than $250,000 in fraudulent loans
                   and undocumented travel expenses. Sentencing is pending.

                   ¾       Harvey White, former Tribal Comptroller, allegedly abused the
                   Tribal Loan Program by taking cash advances at various casinos, receiving
                   unauthorized wire transfers while on tribal business trips and receiving
                   loans from the Tribe that were never repaid. White pled guilty to one count
                   of an indictment and was sentenced to five months of imprisonment, 24
                   months of supervised release, fined $1,500, and ordered to pay restitution
                   in the amount of $19,252.

                   ¾      Susan Van Zile-McGeshick, former tribal receptionist, was indicted
                   on one count of theft from an Indian tribe in the amount of $3,500. The
                   indictment alleges that Van Zile-McGeshick misused the Tribal Loan
                   Program by taking unauthorized loans and pay advances. Trial is pending.

                   ¾        Rhea Reno, former tribal payroll clerk, was indicted on one count of
                   theft from an Indian tribe in the amount of $30,500. The indictment alleges
                   that Reno misused the Tribal Loan Program by taking unauthorized loans
                   and pay advances. Trial is pending.


Three Family                Cindy Turner, Luther Turner, Jr., and James Turner allegedly cashed
Members            more than 20 fraudulent checks totaling $15,000 at the Harrah's Cherokee
                   Tribal Casino in North Carolina. Cindy Turner, who was a license
Charged with
                   examiner for the South Carolina Department of Public Safety, allegedly
Passing Bad        used her position to obtain fictitious drivers licenses and identification
Checks at          cards for her father and uncle. Cindy Turner later admitted to investigators
Harrah's           that the three had opened bank accounts using the false identification cards,
Cherokee Tribal    and then cashed checks from the sham bank accounts at the Casino. All
Casino             three were charged in the Western District of North Carolina on charges of
                   theft from gaming establishments on Indian lands. Trials are pending.




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        13
                                   Return to
                               Table of Contents
Significant Audit Activities and Investigations
Bureau of Indian Affairs
Father Pleads                 Daniel Roller, a non-Indian, fraudulently cashed Individual
Guilty to             Indian Monies (IIM) lease income checks issued to his minor child, an
                      enrolled member of the Fort Peck Tribe of Indians in Montana. A
Charges of
                      Federal grand jury in Montana returned a two-count indictment charging
Stealing His          Roller with mail fraud and theft of government funds. Roller pled guilty
Minor Child’s         to mail fraud. From 1992 through 1998, Roller negotiated nearly
Trust Fund            $15,000 in checks issued for the benefit of his minor child and
Money                 misappropriated the money for his own personal benefit. Sentencing is
                      pending.



Tribes and BIA                Both BIA and the Cheyenne and Arapaho Tribes underscored the
Working               need for cooperation in resolving longstanding problems with the
Together to           Tribes' financial and program management systems. The Tribes have
                      been experiencing difficulty in complying with the terms of their
Improve Tribal        Federal contracts and grants since at least 1992.
Financial and
Program                       BIA classified the Tribes as a "high-risk" contractor in 1996 and
Management            limited Federal funding to a cost-reimbursable basis only. In 2000, the
Systems               Department of Health and Human Services, which also provides
                      significant funding, placed the Tribes on a cost-reimbursable basis. As
                      a result, conditions have stabilized and are improving, as confirmed in
                      our review. We also confirmed that although the Tribes have improved
                      their program management, significant problems remain in establishing
                      participant eligibility for benefits from the Social Services Program.
                      BIA and the Tribes agreed with our recommendations for continued
                      cooperation to improve the Tribes' financial and program management
                      to ensure that the Tribes can once again assume responsibility for
                      administering programs and services to their members.

                              We also identified Federal program funds that had been
                      inappropriately used to pay overhead costs. BIA and the Tribes agreed
                      with our recommendations to determine the amounts applicable to the
                      Federal funding agencies and to notify the agencies accordingly. For the
                      purpose of information and action, we sent our report to the regional
                      offices of the Inspectors General for the Federal agencies providing
                      significant funding.




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        14
                                    Return to
                                Table of Contents
                       Significant Audit Activities and Investigations
                                              Bureau of Land Management




                              As we reported in our October 2001 Semiannual Report, Clive
                      Joe, President of Pan American Geological Services, Inc., was found
                      guilty in May of 1989 in the U.S. District Court, Eastern District of New
                      York. The jury found Joe guilty of conspiracy and mail fraud in an
                      investment scam using the BLM Simultaneous Oil and Gas Lease Lottery
Judgment Day          program. Joe was released on $100,000 bond but failed to appear for
                      sentencing. A bench warrant was issued for his arrest. The bond was
for Eleven-Year       forfeited, and after 11 years, Joe was finally arrested. The same judge
Fugitive from         that presided over his original trial sentenced him to 60 months of
Justice               imprisonment and 24 months of supervised release for the original
                      conviction. The judge added an additional 8 months of incarceration for
                      Joe's failure to appear.




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        15
                                       Return to
                                   Table of Contents
Significant Audit Activities and Investigations
Bureau of Reclamation
                                Steven M. Thompson, natural resources specialist, BOR, Casper,
                       Wyoming, was indicted by a Federal grand jury in the District of Wyoming
                       on a charge that he solicited a bribe from a potential bidder on a Bureau
                       contract. The indictment alleges that in exchange for $500.00, Thompson
                       agreed to reveal the amount the Bureau budgeted for the contract project to
                       a potential bidder. Thompson was arrested and entered a plea of not guilty
                       at his arraignment. A trial is pending.


Natural Resources
Specialist Indicted
for Soliciting Bribe
in Exchange for
Inside
Information




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        16
                                    Return to
                                Table of Contents
                       Significant Audit Activities and Investigations
                                                       Fish and Wildlife Service
                              In response to several Congressional inquiries and a formal
                      request from the Secretary of the Interior, our Office of Program
                      Integrity investigated allegations that FWS employees tampered with the
                      field samples in the National Interagency Canadian Lynx Survey. The
                      Survey was conducted in order to determine the population distribution
                      of an animal listed as "threatened" under the Endangered Species Act.

                              Although criminal prosecution was declined, the Office of
                      Program Integrity uncovered a pattern of bad judgment, such as
                      unauthorized sample submissions by field biologists, failure of Regional
Endangered            and Headquarters managers to recognize the significance of the incident,
Canadian Lynx         and failure to execute timely and appropriate responses. We also
Population            uncovered a lack of scientific rigor that is best illustrated by the absence
Survey Yields         of protocols regarding control samples and the failure of managers to
                      provide adequate training to address the pervasive quality assurance
Questionable
                      concerns of field biologists.
FWS Practices
                              The involved employees were given monetary awards and
                      praised for their actions subsequent to the Lynx study incident,
                      highlighting further poor judgment on the part of the management
                      officials who approved the awards and refocusing attention on the
                      liberal award policy and practices of the FWS, which has in the past
                      been the subject of criticism by the OIG.

                            As a result of this investigation we made the following
                      recommendations:

                      ¾      The Secretary (1) ask the Department's Chief Scientist to make
                      recommendations on how to restore rigorous science to the Endangered
                      Species Program, and (2) to design and implement a DOI Scientific
                      Code of Ethics.

                      ¾       The Director of FWS revisit the issue of administrative action in
                      this matter with a view toward considering (1) more meaningful
                      punishment for those previously counseled, and (2) administrative
                      action against additional FWS employees at the Regional and
                      Headquarters levels.




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        17
                                   Return to
                               Table of Contents
Significant Audit Activities and Investigations
Fish and Wildlife Service

Contractor                    Jerome M. Simpson, owner and President of Nu Waay
Indicted for False    Enterprises, Inc., was indicted by a Federal grand jury in the Middle
                      District of Alabama on two counts of false statements related to claims
Claims
                      he submitted to the FWS against a contract he held to provide certain
                      construction functions at the Noxubee Wildlife Refuge, an FWS refuge
                      in Brooksville, Mississippi. According to the indictment, Simpson
                      allegedly made false claims to the Government when he submitted a
                      request for reimbursement of $200,000 in cash reportedly missing from
                      the Noxubee Wildlife Refuge, and nearly $29,000 in payroll hours
                      allegedly worked at the refuge. The indictment alleged that Simpson
                      intentionally submitted the claim for reimbursement of payroll, which he
                      knew was not incurred at the refuge project. Simpson also allegedly
                      directed a subordinate to submit the $200,000 claim for reimbursement
                      for missing cash and advised that if anyone questioned her about the
                      claim to say it was a typographical error, and that it was meant to be
                      $200.00. Trial date is pending.




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        18
                                     Return to
                                 Table of Contents
                         Significant Audit Activities and Investigations
                                                                          Insular Areas
                             Imata Kabua, while President of the Republic of the Marshall
                    Islands (RMI), allegedly improperly diverted $270,000 in U.S. financial
                    assistance funds from their intended purpose to make payments on a
                    $400,000 personal loan. Pursuant to the Compact of Free Association with
                    the RMI, Kabua had ultimate responsibility and oversight for funds of this
                    type. After local media attention, Kabua entered into an agreement to repay
                    the RMI government. The RMI's unwillingness to invite the OIG to
                    participate in an investigation hindered the U.S. Government from
                    exercising accountability over its funds. Initial investigation suggested a
                    full and comprehensive criminal investigation was warranted. According
Compact
                    to the terms of the Compact, the OIG has no enforcement authority unless
Agreement           invited by the RMI. A management implication memorandum addressing
Impedes             these problems was provided to the Assistant Secretary, Policy,
Investigative       Management and Budget. The OIG has provided the Department of State
Efforts             and the General Accounting Office proposed language which could be used
                    during the renegotiation of the Compact agreement, extending expanded
                    investigative authority to the OIG.

Former CNMI                 Juan Demapan, former Senate President of the Commonwealth of
Senate              Northern Mariana Islands (CMNI) and current President of Demapan
                    Engineering and Construction Company, and Michael Kerschner,
President and
                    Demapan's business associate, were charged in a 17-count indictment with
Business            wire fraud, conspiracy to commit wire fraud, money laundering and uttering
Associate           false bills of lading by a Federal grand jury in the District of the Northern
Indicted on         Marianas. The indictment alleges that Demapan and Kerschner submitted
Contract            false bills of lading to obtain a $500,000 progress payment on a $2.7
Fraud               million CNMI construction contract. The contract, which was 60% funded
                    by the Department through Office of Insular Areas (OIA) Capital
Conspiracy
                    Improvement Project funds, was let to build 60 classrooms in the CNMI.
                    After receiving the $500,000 progress payment, the company allegedly
                    failed to perform on the contract. Trial is pending.

Bribery                     Jesus Sablan and Sablan Construction Company, Ltd. were
Conviction          debarred from participating in any Federal contracts for a period of three
                    years, effective March 1, 2002. The debarment relied on facts developed
Results in
                    in an OIG investigation resulting in a guilty plea in the U.S. Districts of
Debarments          Guam and the CNMI, to bribery charges in connection with programs
                    receiving funds from the Department.




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        19
                                   Return to
                               Table of Contents
Significant Audit Activities and Investigations
Insular Areas
Disturbing State              The state of financial affairs of the Insular Areas is, in a word,
of Affairs in the     disturbing. In no fewer than 458 audits conducted in the Insular Areas
                      dating back to 1982, repeated deficiencies have been detected,
Insular Areas
                      reported, and passed on to the various governing entities. While a
                      majority of the recommendations were accepted, in the end, most have
                      gone unimplemented. The Federal government can no longer continue to
                      accept silence and inaction from appointed or elected officials,
                      legislative bodies, or other responsible Insular Area entities concerning
                      these deficiencies.

                              The Insular Area governments (Guam, U.S. Virgin Islands,
                      American Samoa, Commonwealth of the Northern Mariana Islands,
                      Republic of the Marshall Islands, Federated States of Micronesia, and
                      the Republic of Palau) face major management challenges that in most
                      cases are not being addressed, yet program monies and grants continue
                      to flow.

                              The tax dollars at stake are not insignificant. Those funds
                      aggregate to approximately three-quarters of a billion dollars annually,
                      when Department of the Interior funded programs (FY02: $353 million)
                      and other non-Interior Department funding such as from the Departments
                      of Health and Human Services, Education, and Agriculture (which
                      totaled $405 million in FY99) are taken into account. The Department
                      of the Interior does not have authority over any of the program grants
                      funded by other Federal Departments or agencies.

                              We believe unrealized opportunities for improvement exist in
                      the fundamental areas of:

                             ♦ Financial management
                             ♦ Revenue enhancement
                             ♦ Expenditure control
                             ♦ Program operations

                              Selected examples of the types of deficiencies uncovered during
                      this reporting period include:

                      ¾      Estimated lost potential tax revenues of $7.1 million in
                      American Samoa in fiscal years 1997 through 1999 due to uncorrected
                      long-standing deficiencies identified in five audit reports issued since
                      1986.


  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        20
                                       Return to
                                   Table of Contents
                          Significant Audit Activities and Investigations
                                                                             Insular Areas
Disturbing State of      ¾       The loss, or potential loss, of as much as $65.1 million by four
Affairs in the Insular   semi-autonomous government agencies in Guam, brought about
Areas
(continued)
                         by not following financial advice available from the Guam Economic
                         Authority.

                         ¾       Failure to conduct required biennial fire safety inspections or
                         collection of fire inspection fees of at least $1.1 million by the Virgin
                         Islands Fire Service in fiscal years 1999 and 2000.

                         ¾       The failure by the Virgin Islands Housing Finance Authority
                         (Authority) to (1) establish competitive procurement procedures for
                         selection of housing development contractors, and (2) ensure that
                         program participants met eligibility requirements. This led to
                         questionable payments of as much as $1.95 million to two contractors
                         and preferential treatment to some clients as well as several
                         interest-free loans to Authority employees.

                         ¾       Inadequate controls over financial operations by the Authority
                         also led to a debt of $809,500 for loans to two housing communities and
                         the inability to use bond proceeds of $33.7 million to provide
                         mortgages to eligible participants.

                                 There are many other examples that can be drawn from several
                         prior audits. The common denominator, though, is the lack of
                         responsiveness in seeking to remove impediments to efficiency.
                         Legislation might be required to effectively remedy part of the problem.
                         The Insular Areas may also require resources and other assistance in
                         order to overcome these obstacles.

                                 Without implementation and enforcement of accepted business
                         standards and improved accountability, waste and abuse in the Insular
                         Areas will continue unabated. It is time for OIA and the other Federal
                         grantor agencies to assign a degree of urgency in devising and
                         implementing a realistic plan that will provide assistance and bring
                         about results.




   Semiann ual R
   Semiannual  Reepor
                  portt to the Cong
                               Congrr ess: October 1, 2001 - Mar
                                                             Marcch 31, 2002
                                         21
                                   Return to
                               Table of Contents
Significant Audit Activities and Investigations
Minerals Management Service




                           Unocal Corporation was the latest company to reach an agreement to
                   resolve claims under the False Claims Act that they underpaid royalties
                   owed for oil produced on Federal and Indian lands for more than 10 years.
                   The $21.5 million Unocal settlement agreement brought the total recoveries
                   in underpayments of royalties on gas, crude oil and coal from Federal and
                   Indian lands to more than a half a billion dollars since 1998. In a
                   November 2001 press release by the Department of Justice, the Assistant
Royalty
                   Attorney General lauded DOJ's highest recovery year ever in fraud
Underpayment       recoveries, citing oil, and other minerals extracted from public lands as
Case Yields        second only to health care in such recoveries. This ongoing effort by the
$21.5 Million      Department of Justice, Minerals Management Service and the Office of
Civil Settlement   Investigations continues.




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        22
                                    Return to
                                Table of Contents
                       Significant Audit Activities and Investigations
                                                           National Park Service

                               Karrie Skinner, Employee Relations Specialist, NPS,
                      Washington, D.C., waived indictment and pled guilty in U.S. District
                      Court, Washington, DC, to a misdemeanor charge of theft of government
                      funds after admitting that on three occasions she submitted false award
                      certification forms totaling $2,910 to which she was not entitled.
                      Skinner agreed to pay full restitution to the Government and is currently
Awards                awaiting sentencing. This case highlights the need for proper separation
Processor Submits     of duties, since Skinner was in a position to submit and process awards
                      for herself without any checks or balances. The Office of Investigations
Three Unearned
                      is issuing a Notice of Investigative Findings and Results to NPS to
Bonuses for Herself   address this issue.


NPS                           Addison Fair, former NPS Maintenance Worker, Sharpsburg,
Maintenance           Maryland, was sentenced in U.S. District Court, Washington, D.C., to 4
                      months of imprisonment, 4 months of home detention, 3 years of
Worker
                      supervised release, and ordered to make restitution of more than
Sentenced for         $50,000. As reported in our October 2001 Semiannual Report, Fair
Scheme to             pled guilty to charges that he improperly received disability retirement
Fraudulently          benefits under the Department of Labor, Office of Worker's
Collect               Compensation Program (OWCP). Fair, who was allegedly injured
Disability            while on the job at NPS, submitted false reports to the DOI that he was
                      not working and earned no income when, in fact, he was employed as a
Benefits
                      limousine driver. In addition, our investigation revealed that Fair had
                      falsified his application for employment to the NPS by certifying that he
                      had not been convicted of a crime, when, in fact, he had a previous
                      conviction for fraudulent OWCP claims in 1994.


Maintenance                   As reported in the October 2001 Semiannual Report, Ivan Jones,
Worker                former NPS Maintenance Worker, National Capital Parks East in
                      Washington, D.C., stole government funds by submitting false trial
Sentenced in
                      subpoenas to his supervisor to corroborate receiving paid leave. For
Theft Case for        nearly two years, Jones submitted a series of fabricated trial witness
Submitting            subpoenas from the Superior Court of the District of Columbia to his
False Trial           supervisor at the NPS. Jones was subsequently granted more than six
Subpoenas to          weeks of paid administrative court leave to which he was not entitled.
Supervisors           Jones was sentenced in U.S. District Court, District of Columbia, to 2
                      months of home confinement with electronic monitoring, 36 months of
                      supervised release and to pay restitution in the amount of $3,500.


  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        23
                                   Return to
                               Table of Contents
Significant Audit Activities and Investigations
National Park Service


Former                         Patricia Paul, former NPS administrative officer at John Day
Administrative        Fossil Beds National Monument in Grant, Oregon, was sentenced in
                      U.S. District Court for the District of Oregon, to 6 months of home
Officer               confinement, 36 months of supervised release and ordered to pay
Sentenced in          restitution in the amount of $21,983. Paul's sentence followed her guilty
Credit Card           plea to one felony count of embezzlement relating to unauthorized
Abuse and False       personal purchases on her government-issued credit card totaling
Overtime and          $12,683 and falsely claimed overtime and holiday pay of $12,752.
Holiday Pay Case
Contract Costs                We took exception to $779,274 of $3.5 million billed by a
Questioned            contractor working at the Steamtown National Historic Site in Scranton,
                      Pennsylvania. NPS awarded a 10-year contract to a Pennsylvania firm
                      to construct a central heating and cooling utility system and to distribute
                      heating and cooling service to the Site. We took exception to the costs
                      billed in excess of the actual costs of operating the system. NPS is
                      resolving the cost exceptions with the contractor.




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        24
                                   Return to
                               Table of Contents
                      Significant Audit Activities and Investigations

                                                    Office of Special Trustee

                             We took exception to about $30,000 of a $1.1 million settlement
                     proposal for an Office of Special Trustee (OST) contract to create an
                     electronic archive of images for trust accounts administered by OST.
                     OST terminated the $3.2 million contract for the convenience of the
                     Government and directed the contractor to prepare a termination
                     settlement proposal. The contractor, in turn, terminated its subcontract
                     and asked the subcontractor to prepare a settlement proposal. The
OST Contract         settlement proposal submitted by the contractor and subcontractor
Questioned           included about $30,000 in cost-of-money expenses, which are not
                     allowed under the Federal Acquisition Regulation. OST is resolving
                     the cost exceptions with the contractors.




 Semiann ual R
 Semiannual  Reepor
                portt to the Cong
                             Congrr ess: October 1, 2001 - Mar
                                                           Marcch 31, 2002
                                       25
                                   Return to
                               Table of Contents
Significant Audit Activities and Investigations
U.S. Geological Survey
                              Timothy E. Ruble, USGS research geologist, Denver, Colorado,
                      was indicted by a Federal grand jury on ten counts of receipt and
                      possession of child pornography, and one count of criminal forfeiture
                      for receiving child pornography that had been transported in interstate
                      or foreign commerce by use of a computer. During September and
USGS Employee         October 2001 Ruble allegedly used his USGS computer to access and
                      download child pornography depicting images of the sexual exploitation
Indicted for Child    of small children he obtained through his paid subscription to an Internet
Pornography           news service. Ruble was arrested and entered a plea of not guilty at his
                      arraignment. A trial is pending.


Physical Science              Ronald D. Macklberg, USGS physical science technician,
Technician            Denver, Colorado, pled guilty to a felony charge of enticing a child for
Sentenced for         the purpose of sex, and a misdemeanor charge of unlawful sexual
                      contact following a sting operation by the Douglas County sheriff's
Enticing a Child      office, which targeted individuals sexually preying on minor children.
for Sex               Macklberg used an Internet chat room for more than two weeks (on
                      government time, using a government-owned computer) to arrange a
                      lunchtime meeting with an undercover policewoman who posed as a
                      14-year old child. Macklberg was arrested when he arrived for the
                      rendezvous. Following Macklberg's guilty plea, he was sentenced in
                      Douglas County District Court to a four year deferred judgment and
                      probation. Among the conditions of his probation are that he register as
                      a sex offender, undergo sex offense-specific treatment and stay away
                      from children younger than 18 years of age.


Budget Analyst                Maria A. Carter, former budget analyst in the Water Resources
Resigns Following     Division, USGS, Menlo Park, California, was arrested on charges that
                      for more than two years she allegedly made personal purchases of more
Charges of Credit
                      than $12,000 on her government-issued credit card and to a government-
Card Fraud            issued credit card belonging to a colleague. Among the alleged
                      fraudulent purchases were several airline ticket purchases for Carter
                      and a family member. Trial is pending.




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        26
                                         Return to
                                     Table of Contents
                                      Appendix 1

                               Summary of Audit Related Activities
                              October 1, 2001 through March 31, 2002

                                  AUDITS PERFORMED BY:
                                                      OTHER             NON-
                                           OIG       FEDERAL          FEDERAL
                                          STAFF     AUDITORS         AUDITORS
                                                    (Review and      (Review and
                                                    Processing by    Processing by
                                                        OIG)             OIG )

                                         Internal
                                           And
                                         Contract
                                         Reports    Contract and
                                        and ICPs*   Grant Audits    Single Audits    TOTAL
REPORTS ISSUED TO:

Department/Office of the Secretary          6            0                2            8

Fish and Wildlife and Parks                 3            0                24          27

Indian Affairs                              4            0               175          179

Insular Affairs                             7            0                13          20

Land and Minerals Management                4            0                7           11

Water and Science                           2            0                13          15

 Subtotal                                  26            0               234          260

INDIRECT COST PROPOSALS NEGOTIATED FOR:

Indian Tribes and Organizations            321           0                0           321

Insular Areas                              10            0                0           10

State Agencies                             86            0                0           86

 Subtotal                                  417           0                0           417

     TOTAL                                 443           0               234          677

*Indirect Cost Proposals
Semiann ual R
Semiannual  Reepor
               portt to the Cong
                            Congrr ess: October 1, 2001 - Mar
                                                          Marcch 31, 2002
                                      27
                                                   Return to
                                               Table of Contents
                                                Appendix 2


         Reports Issued or Processed and Indirect Cost Proposals Negotiated
                  During the 6-Month Period Ended March 31, 2002
This listing includes all internal reports (internal audit and advisory reports, and assessments), contract and single
audit reports issued and indirect cost agreements negotiated during the 6-month period ended March 31, 2002. It
provides report number, title, issue date and monetary amounts identified in each report (*funds to be put to Better
Use, ** Questioned Cost, *** Unsupported Cost and **** Lost or Potential Additional Revenues).

INTERNAL REPORTS
American Samoa
2002-I-0003      Assessment and Collection of Taxes, American Samoa Government (11/15/2001)
                 ****$7,148,769

Bureau of Indian Affairs
2002-I-0006      Management of Federal Funds, Cheyenne and Arapaho Tribes of Oklahoma (01/11/2002)
2002-I-0020      Independent Auditors’ Report on the Bureau of Indian Affairs’ Financial Statements for Fiscal
                 Years 2001 and 2000 (03/15/2002)

Bureau of Land Management
2002-I-0008      Maintaining the Department of the Interior’s Facilities, A Framework for Action
                 (12/12/2001)
2002-I-0022      Independent Auditors’ Report on the Bureau of Land Management’s Financial Statements for
                 Fiscal Years 2001 and 2000 (03/15/2002)

Bureau of Reclamation
2002-I-0004      Improvements Needed in Security Management of Information Technology Systems
                 Supporting Energy and Water Operations (10/26/2001)
2002-I-0024      Independent Auditors’ Report on the Bureau of Reclamation’s Financial Statements for Fiscal
                 Years 2001 and 2000 (03/25/2002)

Fish and Wildlife Service
2002-I-0025      Independent Auditor’s Report on the U.S. Fish and Wildlife Service’s Financial Statements for
                 Fiscal Years 2001 and 2000 (03/25/2002)

Guam
2002-I-0016      Bond Services, Lease Operations, Trust Fund Activities, Guam Economic Development
                 Authority, Government of Guam (02/28/2002) *$66,475,964 ****$1,543,024

Minerals Management Service
2002-I-0023      Independent Auditors’ Report on the Minerals Management Service’s Financial Statements
                 for Fiscal Years 2001 and 2000 (03/15/2002)

   Semiann ual R
   Semiannual  Reepor
                  portt to the Cong
                               Congrr ess: October 1, 2001 - Mar
                                                             Marcch 31, 2002
                                         28
                                            Return to
                                        Table of Contents
                                                                           Appendix 2 (continued)




Multi-Office
2002-I-0011   Department of the Interior Integrated Credit Card Program (12/20/2001)
2002-I-0013   Report on Followup of Implementation of Audit Recommendations (12/31/2001)
2002-I-0014   Assessment of the Department of the Interior’s Law Enforcement Activities (01/14/2002)
2002-I-0015   District of Columbia Water and Sewer Authority, for the Period October 1, 2001
              through December 31, 2001 (01/28/2002)
2002-I-0018   U.S. Department of the Interior Fiscal Year 2001 Annual Departmental Report on
              Accountability (02/27/2002)

National Park Service
2002-I-0019   Independent Auditors’ Report on the National Park Service’s Financial Statements for Fiscal
              Years 2001 and 2000 (03/15/2002)

Office of Surface Mining
2002-I-0021   Independent Auditors’ Report on the Office of Surface Mining Reclamation and Enforcement’s
              Financial Statements for Fiscal Years 2001 and 2000 (03/15/2002)

Office of Insular Affairs
2002-I-0017   Management Challenges for Insular Area Governments, An Opportunity for Improvement
              (03/01/2002)

Office of the Secretary
2002-I-0012   Department of the Interior Responses to Review Guide for Planning and Assessment Activities
              for Protecting Critical Non-Cyber Infrastructures (12/21/2001)

Virgin Islands
2002-I-0001   Virgin Islands Fire Service, Government of the Virgin Islands (10/30/2001) *$2,041,268,
              ***$368,320 & ****$1,122,050
2002-I-0002   Job Training Partnership Act Programs, Department of Labor, Government of the Virgin
              Islands (11/07/2001) **$152,840 & ***$1,923,364
2002-I-0009   Virgin Islands Housing Finance Authority, Government of the Virgin Islands
              (12/31/2001) *$36,530,866, **$7,500 & ****$877,950
2002-I-0010   Administrative Functions, Virgin Islands Police Department, Government of the Virgin Islands
              (02/13/2002) *$2,469,407, **$206,854, ***$275,985 & ****$71,700

CONTRACT AUDITS
National Park Service
2002-E-0002   Community Central Energy Corporation, Amounts Billed Under National Park Service
              Contract No. CX-4000-0-0023 from October 1, 1993 through September 30, 2000
              (12/19/2001) **$779,274



  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        29
                                           Return to
                                       Table of Contents
Appendix 2 (continued)



Office of the Special Trustee for American Indians
2002-E-0001   Los Alamos Technical Associates, Incorporated, Termination Settlement Proposal Under
              Office of the Special Trustee Contract No. NBCA0C00009 (01/17/2002) **$30,031
2002-E-0003   Ktech Corporation, Termination Settlement Proposal Under Office of the Special Trustee
              Contract No. NBCA0C00009 (01/17/2002) **$28,381

SINGLE AUDITS
Bureau of Indian Affairs
2002-A-0001   Salt River Pima-Maricopa Indian Community, Fiscal Year Ended September 30, 1999
              (10/12/2001)
2002-A-0002   Osage Tribal Council, Fiscal Year Ended June 30, 1999 (10/12/2001)
2002-A-0003    Fort Belknap Indian Community, Fiscal Year Ended September 30, 1999 (10/12/2001)
              **$26,973
2002-A-0006   Wampanoag Tribe of Gay Head (Aquinnah), Fiscal Year Ended September 30, 1999
              (10/12/2001)
2002-A-0007   Wampanoag Tribe of Gay Head (Aquinnah), Fiscal Year Ended September 30, 2000
              (10/12/2001) **$397,419
2002-A-0008   Assiniboine and Sioux Tribes, Fiscal Year Ended September 30, 1998 (10/12/2001)
2002-A-0009   Assiniboine and Sioux Tribes, Fiscal Year Ended September 30, 1999 (10/12/2001) **$1,380
2002-A-0010   Leech Lake Reservation, Fiscal Year Ended September 30, 1998 (10/12/2001)
2002-A-0011   Leech Lake Reservation, Fiscal Year Ended September 30, 1999 (10/12/2001)
2002-A-0012   Mississippi Band of Choctaw Indians, Fiscal Year Ended September 30, 1999 (10/12/2001)
2002-A-0013   Hoopa Valley Tribe, Fiscal Year Ended September 30, 1999 (10/12/2001)
2002-A-0014   Tiospa Zina Tribal School, Fiscal Year Ended June 30, 1999 (10/12/2001)
2002-A-0015   Developing Innovations in Education, Inc., Fiscal Year Ended December 31, 1999
              (10/19/2001)
2002-A-0016   Redding Rancheria, Fiscal Year Ended December 31, 1999 (10/19/2001)
2002-A-0017   Northern Cheyenne Tribal School, Fiscal Year Ended June 30, 1999 (10/19/2001)
2002-A-0018   Hualapai Tribe, Fiscal Year Ended December 31, 1998 (10/19/2001)
2002-A-0019   InterTribal Bison, Inc., Fiscal Year Ended March 31, 1999 (10/19/2001)
2002-A-0020   Choctaw Nation of Oklahoma, Fiscal Year Ended September 30, 1999 (10/19/2001)
2002-A-0021   Fort Mojave Indian Tribe, Fiscal Year Ended September 30, 1999 (10/19/2001)
2002-A-0022   Paiute-Shoshone Indians of the Bishop Community of the Bishop Colony, Fiscal Year Ended
              December 31, 1999 (10/17/2001)
2002-A-0023   Colorado River Indian Tribes, Fiscal Year Ended December 31, 1998 (10/17/2001)
2002-A-0024   Shonto Governing Board of Education, Inc., Fiscal Year Ended June 30, 1999 (10/17/2001)
2002-A-0026   Taos Pueblo Central Management System, Fiscal Year Ended December 31, 1999
              (10/26/2001)
2002-A-0027   Duckwater Shoshone Tribe, Fiscal Year Ended December 31, 1999 (10/25/2001)
2002-A-0030   Eastern Shoshone Tribe of the Wind River Reservation, Fiscal Year Ended
              December 31, 1999 (10/25/2001)
2002-A-0031   Cherokee Nation, Fiscal Year Ended September 30, 1997 (10/30/2001)
2002-A-0032   Cherokee Nation, Fiscal Year Ended September 30, 1998 (10/30/2001) **$88,000
2002-A-0033   Pueblo of Zuni, Fiscal Year Ended December 31, 1999 (10/30/2001)
2002-A-0034   Association of Village Council Presidents, Inc., Fiscal Year Ended December 31, 1999
              (10/02/2001)
2002-A-0035   Sac and Fox Nation of Oklahoma, Fiscal Year Ended September 30, 1999 (11/02/2001)

  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        30
                                           Return to
                                       Table of Contents
                                                                        Appendix 2 (continued)



2002-A-0036   Northwest Indian Fisheries Commission, Fiscal Year Ended September 30, 1999 (10/30/2001)
2002-A-0037   Sokaogon Chippewa Community Mole Lake Band, Fiscal Year Ended September 30, 1999
              (10/30/2001)
2002-A-0038   Turtle Mountain Band of Chippewa Indian, Fiscal Year Ended September 30, 1999
              (10/30/2001)
2002-A-0039   Winnebago Tribe of Nebraska, Fiscal Year Ended September 30, 1998 (11/02/2001)
2002-A-0040   Joint Programs of the Shoshone and Arapaho Tribes of the Wind River Reservation, Fiscal
              Year Ended December 31, 1997 (10/30/2001)
2002-A-0041   Joint Programs of the Shoshone and Arapaho Tribes of the Wind River Reservation, Fiscal
              Year Ended December 31, 1998 (10/30/2001)
2002-A-0042   Joint Programs of the Shoshone and Arapaho Tribes of the Wind River Reservation, Fiscal
              Year Ended December 31, 1999 (10/30/2001)
2002-A-0044   Tunica Biloxi Tribe of Louisiana, Fiscal Year Ended December 31, 1999 (10/30/2001)
2002-A-0045   Rincon San Luiseno Band of Mission Indians, Fiscal Year Ended December 31, 1999
              (10/30/2001)
2002-A-0047   Upper Skagit Indian Tribe, Fiscal Year Ended December 31, 1999 (10/30/2001)
2002-A-0048   Upper Skagit Indian Tribe, Fiscal Year Ended December 31, 2000 (10/30/2001)
2002-A-0049   Wounded Knee District School, Fiscal Year Ended June 30, 1998 (10/30/2001) **$352,780
2002-A-0050   Cocopah Indian Tribe, Fiscal Year Ended December 31, 1998 (11/02/2001)
2002-A-0051   Pueblo de San Ildefonso, Fiscal Year Ended December 31, 1998 (10/30/2001)
2002-A-0052   Pueblo de San Ildefonso, Fiscal Year Ended December 31, 1999 (10/30/2001)
2002-A-0053   Winnebago Tribe of Nebraska, Fiscal Year Ended September 30, 1997 (11/02/2001)
2002-A-0055   Yavapai-Prescott Indian Tribe, Fiscal Year Ended December 31, 1999 (11/09/2001)
2002-A-0059   Coast Indian Community of the Resighini Rancheria, Fiscal Year Ended December 31, 1997
              (11/16/2001)
2002-A-0065   Grand Portage Reservation Tribal Council, Fiscal Year Ended December 31, 1999
              (11/16/2001)
2002-A-0066   Grand Portage Reservation Tribal Council, Fiscal Year Ended December 31, 2000
              (11/16/2001)
2002-A-0067   Pyramid Lake Paiute Tribe, Fiscal Year Ended December 31, 1999 (11/16/2001)
              **$3,231,341
2002-A-0068   Tulalip Tribes of Washington, Fiscal Year Ended December 31, 1999 (11/16/2001)
2002-A-0069   Santee Sioux Tribe of Nebraska, Fiscal Year Ended September 30, 1997 (11/16/2001)
2002-A-0070   Santee Sioux Tribe of Nebraska, Fiscal Year Ended September 30, 1998 (11/16/2001)
2002-A-0072   Sky People Higher Education, Fiscal Year Ended September 30, 1999 (11/16/2001)
2002-A-0073   Crazy Horse School, Fiscal Year Ended June 30, 1999 (11/16/2001) **$19,029
2002-A-0075   Rosebud Sioux Tribe, Fiscal Year Ended September 30, 1999 (11/16/2001)
2002-A-0076   Pascua Yaqui Tribe of Arizona, Fiscal Year Ended September 30, 1997 (11/16/2001)
2002-A-0078   Bay Mills Community College, Fiscal Year Ended June 30, 2000 (11/16/2001)
2002-A-0080   San Carlos Apache Tribe, Fiscal Year Ended September 30, 1999 (11/19/2001)
2002-A-0084   Kaibab Band of Paiute Indians, Fiscal Year Ended December 31, 1999 (11/28/2001)
2002-A-0085   Swinomish Indian Tribal Community, Fiscal Year Ended December 31, 1999(11/28/2001)
2002-A-0087   Little Wound School Board, Inc., Fiscal Year Ended June 30, 2000 (11/28/2001)
2002-A-0088   Native Village of Tyonek, Fiscal Year Ended June 30, 1998 (11/28/2001)
2002-A-0093   Grand Traverse Band of Ottawa and Chippewa Indians, Fiscal Year Ended
              September 30, 1999 (11/28/2001)
2002-A-0094   Oglala Sioux Tribe, Fiscal Year Ended December 31, 1997 (12/05/2001)
2002-A-0095   Pueblo of Laguna Department of Education, Fiscal Year Ended June 30, 2000 (12/21/2001)
2002-A-0096   Spirit Lake Tribe, Fiscal Year Ended September 30, 2000 (12/21/2001) **$2,656
2002-A-0097   Loneman School Corporation, Fiscal Year Ended June 30, 1999 (12/05/2001)

  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        31
                                           Return to
                                       Table of Contents
Appendix 2 (continued)




2002-A-0098   Loneman Day School, Fiscal Year Ended June 30, 2000 (12/21/2001)
2002-A-0099   Sauk-Suiattle Indian Tribe, Fiscal Year Ended December 31, 1999 (12/21/2001)
2002-A-0100   Havasupai Elementary School, Fiscal Year Ended June 30, 1999 (12/21/2001)
2002-A-0101   Northern Cheyenne Tribal School, Fiscal Year Ended June 30, 2000 (12/21/2001)
2002-A-0103   Enemy Swim Day School, Fiscal Year Ended June 30, 2000 (12/21/2001)
2002-A-0105   Spokane Tribe of Indians, Fiscal Year Ended September 30, 1999 (12/18/2001)
2002-A-0106   Northwest Indian College, Fiscal Year Ended June 30, 2000 (12/18/2001)
2002-A-0107   InterTribal Bison, Inc., Fiscal Year Ended March 31, 2000 (12/21/2001) **$26,388
2002-A-0108   Northwest Intertribal Court System, Fiscal Year Ended September 30, 2000 (12/21/2001)
2002-A-0109   Eastern Band of Cherokee Indians, Fiscal Year Ended September 30, 2000 (01/03/2002)
2002-A-0110   Wa He Lut Indian School, Fiscal Year Ended June 30, 2000 (12/21/2001)
2002-A-0111   Penobscot Indian Nation, Fiscal Year Ended September 30, 2000 (12/21/2001)
2002-A-0112   Gila River Indian Community, Fiscal Year Ended September 30, 2000 (12/21/2001)
2002-A-0113   Santo Domingo Tribe, Fiscal Year Ended September 30, 2000 (12/27/2001)
2002-A-0114   American Indian Graduate Center, Inc., Fiscal Year Ended June 30, 2000 (12/27/2001)
2002-A-0115   Chippewa Cree Tribe, Fiscal Year Ended September 30, 1999 (12/27/2001)
2002-A-0116   Iliamna Village Council, Fiscal Year Ended September 30, 1999 (12/27/2001)
2002-A-0117   Iliamna Village Council, Fiscal Year Ended September 30, 2000 (12/27/2001)
2002-A-0118   Cherokee Nation, Fiscal Year Ended September 30, 1999 (12/27/2001)
2002-A-0119   Cherokee Nation, Fiscal Year Ended September 30, 2000 (12/27/2001)
2002-A-0120   Skagit System Cooperative, Fiscal Year Ended December 31, 2000 (12/27/2001)
2002-A-0121   Tuba City High School Board, Inc., Fiscal Year Ended June 30, 1999 (12/27/2001)
2002-A-0122   Crow Tribe of Indians, Fiscal Year Ended September 30, 1999 (12/27/2001)
2002-A-0123   Kodiak Tribal Council, Fiscal Year Ended September 30, 2000 (01/04/2002)
2002-A-0124   Confederated Tribes of the Chehalis Reservation, Fiscal Year Ended December 31, 1999
              (01/04/2002) **$47,500
2002-A-0125   Rock Point School, Inc., Fiscal Year Ended June 30, 2000 (01/04/2002)
2002-A-0126   Chickasaw Nation, Fiscal Year Ended September 30, 2000 (01/04/2002) **$19,330
2002-A-0127   Seneca Nation of Indians, Fiscal Year Ended September 30, 2000 (01/04/2002) **$624
2002-A-0128   Yankton Sioux Tribe, Fiscal Year Ended September 30, 2000 (01/04/2002)
2002-A-0129   Native American Fish & Wildlife Society, Fiscal Year Ended December 31, 2000 (01/09/2002)
2002-A-0134   Pokagon Band of Potawatomi Indians, Fiscal Year Ended September 30, 2000 (01/09/2002)
2002-A-0139   Red Cliff Band of Lake Superior Chippewas, Fiscal Year Ended September 30, 1997
              (01/16/2002)
2002-A-0140   Table Bluff Reservation - Wiyot Tribe, Fiscal Year Ended December 31, 1999 (01/18/2002)
2002-A-0142   Pleasant Point Passamaquoddy Tribal Council, Fiscal Year Ended September 30, 1999
              (01/18/2002)
2002-A-0143   Sicangu Oyate Ho, Inc., Fiscal Year Ended June 30, 2000 (01/18/2002)
2002-A-0144   North Fork Mono Rancheria, Fiscal Year Ended September 30, 2000 (01/17/2002)
2002-A-0145   Dibe Yazhi Habitiin Olta, Inc., DBA Borrego Pass School, Fiscal Year Ended June 30, 2000
              (01/17/2002)
2002-A-0146   Havasupai Tribe, Fiscal Year Ended September 30, 1999 (01/25/2002)
2002-A-0147   Sault Ste. Marie Tribe of Chippewa Indians, Fiscal Year Ended December 31, 2000
              (01/25/2002)
2002-A-0148   Oneida Tribe of Indians of Wisconsin, Fiscal Year Ended September 30, 2000 (01/25/2002)
2002-A-0149   Red Lake Band of Chippewa Indians, Fiscal Year Ended September 30, 1999(01/29/2002)

  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        32
                                            Return to
                                        Table of Contents
                                                                          Appendix 2 (continued)



2002-A-0150   Jamestown S’Klallam Tribe, Fiscal Year Ended September 30, 2000 (01/28/2002)
2002-A-0151   Alamo Navajo School Board, Inc., Fiscal Year Ended June 30, 2000 (01/28/2002)
2002-A-0152   Shiprock Alternative Schools, Inc., Fiscal Year Ended June 30, 2000 (01/28/2002) **$33,846
2002-A-0153   Native Village of Kwigillingok, Kwigillingok IRA Council, Fiscal Year Ended
              December 31, 1999 (01/28/2002)
2002-A-0154   Naa Tsis’ Aan Community School, Fiscal Year Ended June 30, 2000 (01/28/2002)
2002-A-0157   San Juan Pueblo, Fiscal Year Ended December 31, 2000 (01/29/2002)
2002-A-0158   Shoalwater Bay Indian Tribe, Fiscal Year Ended September 30, 2000 (01/29/2002)
2002-A-0159   Chenega IRA Council, Fiscal Year Ended December 31, 1999 (01/29/2002)
2002-A-0160   Hannahville Indian Community, Fiscal Year Ended September 30, 2000 (01/29/2002)
2002-A-0161   Fond du Lac Reservation, Fiscal Year Ended September 30, 2000 (01/29/2002)
2002-A-0162   Ely Shoshone Tribe, Fiscal Year Ended December 31, 2000 (01/29/2002)
2002-A-0163   Klamath Tribe, Fiscal Year Ended December 31, 1999 (01/29/2002)
2002-A-0166   Colorado River Indian Tribes, Fiscal Year Ended December 31, 1999 (02/05/2002)
2002-A-0167   Saint Regis Mohawk Tribe, Fiscal Year Ended December 31, 2000 (02/05/2002)
2002-A-0168   Knik Tribal Council, Fiscal Year Ended June 30, 2000 (02/05/2002)
2002-A-0169   Sherwood Valley Rancheria, Fiscal Year Ended December 31, 1999 (02/05/2002)
2002-A-0170   Crow Creek Tribal Schools, Fiscal Year Ended June 30, 2000 (02/05/2002)
2002-A-0171   Hualapai Tribe, Fiscal Year Ended December 31, 1999 (02/08/2002)
2002-A-0172   Morongo Band of Mission Indians, Fiscal Year Ended June 30, 1999 (02/08/2002)
2002-A-0173   Circle Village Council, Fiscal Year Ended September 30, 1999 (02/28/2002) **$54,881
2002-A-0174   White Mountain Apache Tribe, Fiscal Year Ended April 30, 2000 (02/12/2002) **$2,184
2002-A-0175   Cankdeska Cikana Community College, Fiscal Year Ended September 30, 2000 (02/16/2002)
2002-A-0181   Trinidad Rancheria, Fiscal Year Ended December 31, 2000 (02/22/2002)
2002-A-0183   Winslow Residential Hall, Inc., Fiscal Year Ended June 30, 2000 (02/25/2002)
2002-A-0184   Comanche County, Oklahoma, Fiscal Year Ended June 30, 2000 (02/25/2002)
2002-A-0185   Chilchinbeto Community School, Inc., Fiscal Year Ended June 30, 2000 (02/25/2002)
2002-A-0186   Kayenta Community School, Fiscal Year Ended June 30, 2000 (02/25/2002)
2002-A-0187   Igiugig Village Council, Nine Months Ended September 30, 2000 (02/22/2002)
2002-A-0188   Kaw Nation of Oklahoma, Fiscal Year Ended December 31, 1999 (02/22/2002)
2002-A-0189   Confederated Tribes of Coos, Lower Umpqua and Siuslaw Indians, Fiscal Year Ended
              December 31, 1999 (02/22/2002)
2002-A-0190   Northwestern Band of the Shoshoni Nation, Fiscal Year Ended December 31, 1998
              (02/28/2002)
2002-A-0191   Temecula Band of Luiseno Mission Indians, Fiscal Year Ended September 30, 1999
              (03/11/2002)
2002-A-0192   Lummi Indian Business Council, Fiscal Year Ended December 31, 1999 (02/28/2002)
2002-A-0193   Yerington Paiute Tribe, Fiscal Year Ended December 31, 1999 (03/19/2002)
2002-A-0194   Mooretown Rancheria, Fiscal Year Ended December 31, 1999 (02/28/2002)
2002-A-0195   Quileute Tribal Council, Fiscal Year Ended September 30, 1999 (02/28/2002)
2002-A-0197   Ute Indian Tribe, Fiscal Year Ended September 30, 1999 (02/28/2002)
2002-A-0198   Yankton Sioux Tribe, Fiscal Year Ended September 30, 1998 (02/28/2002)
2002-A-0199   Yankton Sioux Tribe, Fiscal Year Ended September 30, 1999 (02/28/2002)
2002-A-0200   Nisqually Indian Tribe, Fiscal Year Ended December 31, 1998 (02/28/2002)
2002-A-0201   Nisqually Indian Tribe, Fiscal Year Ended December 31, 1999 (02/28/2002)
2002-A-0202   Oglala Sioux Tribal Public Safety Commission, Fiscal Year Ended September 30, 1997
              (02/28/2002) **$197,895
  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        33
                                           Return to
                                       Table of Contents
Appendix 2 (continued)



2002-A-0203   Pokagon Band of Potawatomi Indians, Fiscal Year Ended September 30, 1999 (02/28/2002)
2002-A-0204   Tuba City High School Board, Inc., Fiscal Year Ended June 30, 2000 (02/28/2002)
2002-A-0206   Lytton Band of Pomo Indians, Fiscal Year Ended December 31, 2000 (03/08/2002)
2002-A-0207   Pueblo of Nambe, Fiscal Year Ended September 30, 1997 (02/28/2002)
2002-A-0210   College of the Menominee Nation, Fiscal Year Ended June 30, 2000 (03/15/2002)
2002-A-0213   Northern Cheyenne Tribe, Fiscal Year Ended September 30, 1999 (03/20/2002)
2002-A-0214   Northwest Indian Fisheries Commission, Fiscal Year Ended September 30, 2000 (03/20/2002)
2002-A-0215   Pawnee Nation of Oklahoma, Fiscal Year Ended December 31, 1999 (03/20/2002) **$4,655
2002-A-0216   Cow Creek Band of Umpqua Tribes of Indians, Fiscal Year Ended December 31, 2000
              (03/20/2002)
2002-A-0217   Sisseton-Wahpeton Sioux Tribe, Fiscal Year Ended September 30, 1999 (03/20/2002)
2002-A-0218   Yavapai-Prescott Indian Tribe, Fiscal Year Ended December 31, 2000 (03/21/2002)
2002-A-0219   Copper River Native Association, Inc., Fiscal Year Ended September 30, 2000 (03/21/2002)
2002-A-0221   Navajo Nation and Related Tribal Entities, Fiscal Year Ended September 30, 1999
              (03/21/2002)
2002-A-0222   Sherwood Valley Rancheria, Fiscal Year Ended December 31, 1998 (03/21/2002)
2002-A-0223   Sitting Bull College, Fiscal Year Ended June 30, 1999 (03/21/2002)
2002-A-0224   Sitting Bull College, Fiscal Year Ended June 30, 2000 (03/21/2002)
2002-A-0225   Chief Leschi Schools, Inc., Fiscal Year Ended June 30, 1999 (03/21/2002)
2002-A-0226   Chief Leschi Schools, Inc., Fiscal Year Ended June 30, 2000 (03/21/2002)
2002-A-0227   Shonto Governing Board of Education, Inc., Fiscal Year Ended June 30, 2000 (03/21/2002)
2002-A-0230   Salt River Pima-Maricopa Indian Community, Fiscal Year Ended September 30, 2000
              (03/28/2002)
2002-A-0231   Pueblo De Cochiti, Fiscal Year Ended December 31, 2000 (03/28/2002)
2002-A-0232   Te-Moak Tribe of Western Shoshone Battle Mountain Band Council, Fiscal Year Ended
              September 30, 2000 (03/28/2002)
2002-A-0233   Pueblo of Acoma, Fiscal Year Ended December 31, 1998 (03/28/2002) **$53,048

Bureau of Land Management
2002-A-0046   Glacier County, Montana, Fiscal Year Ended June 30, 1998 (11/02/2001)
2002-A-0077   Archuleta County, Colorado, Fiscal Year Ended December 31, 1998 (11/16/2001)
2002-A-0141   Pend Oreille County, Washington, Fiscal Year Ended December 31, 1998 (01/18/2002)
2002-A-0176   Richland County, Montana, Fiscal Year Ended June 30, 2000 (02/15/2002)

Bureau of Reclamation
2002-A-0029   Nebraska Community Foundation, Fiscal Year Ended June 30, 2000 (10/25/2001)
2002-A-0133   City of McCall, Idaho, Fiscal Year Ended September 30, 2000 (01/09/2002)
2002-A-0155   Fort Peck Rural County Water District, Inc., Fiscal Year Ended June 30, 2000 (01/28/2002)
2002-A-0156   Nebraska Community Foundation, Fiscal Year Ended June 30, 1999 (01/28/2002)
2002-A-0196   Pima County, Arizona, Fiscal Year Ended June 30, 2000 (02/28/2002) **$15,582
2002-A-0205   San Xavier District, Fiscal Year Ended September 30, 2000 (03/07/2002)




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        34
                                           Return to
                                       Table of Contents
                                                                        Appendix 2 (continued)




Federated States of Micronesia
2002-A-0063   College of Micronesia Land Grant Program, Fiscal Year Ended September 30, 2000
              (11/14/2001)

Fish and Wildlife Service
2002-A-0043   Pheasants Forever, Inc., Fiscal Year Ended June 30, 2000 (11/02/2001)
2002-A-0057   University of New Mexico, Fiscal Year Ended June 30, 2000 (11/09/2001)
2002-A-0074   Michigan Department of Natural Resources, Two Fiscal Years Ended September 30, 1999
              (11/16/2001) **$33,174
2002-A-0081   Illinois Institute of Technology, Fiscal Year Ended June 30, 1999 (11/19/2001)
2002-A-0091   New Hampshire, Fiscal Year Ended June 30, 2000 (11/28/2001)
2002-A-0092   New Mexico Department of Game of Fish, Fiscal Year Ended June 30, 2000 (11/28/2001)
2002-A-0130   Oregon, Fiscal Year Ended June 30, 2000 (01/09/2002)
2002-A-0131   Delaware, Fiscal Year Ended June 30, 2000 (01/04/2002)
2002-A-0132   Rhode Island and Providence Plantations, Fiscal Year Ended June 30, 2000 (01/04/2002)
2002-A-0136   Alabama, Fiscal Year Ended September 30, 2000 (01/16/2002)
2002-A-0138   North Dakota, Fiscal Year Ended June 30, 2000 (01/16/2002)
2002-A-0182   Arkansas Game and Fish Commission, Fiscal Year Ended June 30, 2000 (02/22/2002)
2002-A-0208   City of Cherokee, Fiscal Year Ended June 30, 2000 (03/08/2002)
2002-A-0212   Texas, Fiscal Year Ended August 31, 2000 (03/20/2002)
2002-A-0220   State of Maine, Fiscal Year Ended June 30, 2000 (03/21/2002)
2002-A-0234   American Farmland Trust, Fiscal Year Ended September 30, 2000 (03/28/2002)

Geological Survey
2002-A-0056   Oklahoma State University, Fiscal Year Ended June 30, 2000 (11/09/2001)
2002-A-0061   University of Wyoming, Fiscal Year Ended June 30, 2000 (11/16/2001)
2002-A-0090   Miami University, Fiscal Year Ended June 30, 2000 (11/28/2001)
2002-A-0102   Ohio State University, Fiscal Year Ended June 30, 2000 (12/21/2001)
2002-A-0104   Michigan Department of Environmental Quality, Fiscal Year Ended September 30, 1999
              (12/21/2001)
2002-A-0137   University of Missouri System, Fiscal Year Ended June 30, 2000 (01/16/2002)
2002-A-0228   The George Washington University, Fiscal Year Ended June 30, 2000 (03/27/2002)

Guam
2002-A-0004   Guam Telephone Authority, Fiscal Year Ended September 30, 2000 (10/12/2001)
2002-A-0005   Guam Community College Foundation, Fiscal Year Ended September 30, 2000 (10/12/2001)
2002-A-0025   University of Guam, Fiscal Year Ended September 30, 2000 (10/16/2001)
2002-A-0054   Guam Community College, Fiscal Year Ended September 30, 2000 (11/06/2001)
2002-A-0082   Guam Housing and Urban Renewal Authority, Fiscal Year Ended September 30, 2000
              (11/21/2001)
2002-A-0164   Government of Guam, Fiscal Year Ended September 30, 2000 (01/30/2002) **$3,526,590


  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        35
                                            Return to
                                        Table of Contents
Appendix 2 (continued)




Northern Mariana Islands
2002-A-0064   Karidat, Fiscal Year Ended September 30, 2000 (11/14/2001)
2002-A-0165   Public School System, Commonwealth of the Northern Mariana Islands, Fiscal Year Ended
              September 30, 1997 (01/30/2002)
2002-A-0180   Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30, 2000
              (02/19/2002)

National Park Service
2002-A-0028   Georgia Trust for Historic Preservation, Inc., Fiscal Year Ended March 31, 2000 (10/25/2001)
2002-A-0060   Appalachian Trail Conference, Fiscal Year Ended December 31, 1999 (11/16/2001)
2002-A-0062   City of Newport, Rhode Island, Fiscal Year Ended June 30, 1999 (11/16/2001)
2002-A-0083   Education Development Center, Inc., Fiscal Year Ended September 30, 2000 (11/28/2001)
2002-A-0089   University of the District of Columbia, Fiscal Year Ended September 30, 1998 (11/28/2001)
2002-A-0177   University of Denver (Colorado Seminary), Fiscal Year Ended June 30, 2000 (02/15/2002)
2002-A-0178   Springfield Library and Museums Association, Fiscal Year Ended June 30, 2000 (02/15/2002)
2002-A-0179   University of Oklahoma - Norman Campus, Fiscal Year Ended June 30, 2000 (02/15/2002)

Office of Surface Mining
2002-A-0058   Campbell County School District No. 1, Fiscal Year Ended June 30, 2000 (11/16/2001)
2002-A-0086   State of New Mexico Energy, Minerals, and Natural Resources Department, Fiscal Year Ended
              June 30, 2000 (11/28/2001)
2002-A-0211   State of Illinois, Fiscal Year Ended June 30, 2000 (03/15/2002)

Office of the Secretary
2002-A-0079   Archuleta County, Colorado, Fiscal Year Ended December 31, 1999 (11/16/2001)
2002-A-0229   Smithsonian Institution, Fiscal Year Ended September 30, 2000 (03/28/2002)

Palau
2002-A-0071   Palau Community Action Agency, Fiscal Year Ended September 30, 2000 (11/15/2001)

Virgin Islands
2002-A-0135   Virgin Islands Housing Authority, Fiscal Year Ended December 31, 2000 (12/18/2001)
2002-A-0209   Government of the Virgin Islands, Fiscal Year Ended September 30, 2000 (03/08/2002)




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        36
                                           Return to
                                       Table of Contents
                                                                        Appendix 2 (continued)




INDIRECT COST PROPOSALS
Bureau of Indian Affairs
2002-P-0001   Northwest Indian College, Fiscal Year Ended June 30, 2001 (03/07/2002) *$9,744
2002-P-0002   Northwest Indian Fisheries Commission, Fiscal Year Ended September 30, 2001 (10/04/2001)
              *$6,060
2002-P-0003   Assiniboine and Sioux Tribes, Fiscal Year Ended September 30, 2000 (10/09/2001) *$462,652
2002-P-0004   Assiniboine and Sioux Tribes, Fiscal Year Ended September 30, 2001 (10/09/2001)
2002-P-0009   Yomba Shoshone Tribe, Fiscal Year Ended December 31, 2000 (10/15/2001)
2002-P-0010   Yomba Shoshone Tribe, Fiscal Year Ended December 31, 1999 (10/15/2001) *$105,624
2002-P-0011   Fort Independence Indian Reservation, Fiscal Year Ended December 31, 2001 (10/15/2001)
2002-P-0012   Confederated Tribes of Coos, Lower Umpqua and Siuslaw Indians, Fiscal Year Ended
              December 31, 2001 (10/15/2001) *$27,141
2002-P-0013   Prairie Band of Potowatomi Indians, Fiscal Year Ended December 31, 1998 (10/16/2001)
              *$88,098
2002-P-0014   Pueblo of Jemez, Fiscal Year Ended September 30, 2000 (10/16/2001)
2002-P-0015   Alabama-Coushatta Tribe of Texas, Fiscal Year Ended December 31, 2000 (10/16/2001)
2002-P-0016   Miami Tribe of Oklahoma, Fiscal Year Ended September 30, 2000 (10/17/2001)
2002-P-0017   Miami Tribe of Oklahoma, Fiscal Year Ended September 30, 2001 (10/17/2001)
2002-P-0018   Flandreau Santee Sioux Tribe, Fiscal Year Ended December 31, 2000 (10/17/2001)
2002-P-0019   Flandreau Santee Sioux Tribe, Fiscal Year Ended December 31, 2001 (10/17/2001)
2002-P-0020   Flandreau Santee Sioux Tribe, Fiscal Year Ended December 31, 1999 (10/17/2001)
2002-P-0021   Flandreau Santee Sioux Tribe, Fiscal Year Ended December 31, 1998 (10/17/2001) *$11,657
2002-P-0022   Flandreau Santee Sioux Tribe, Fiscal Year Ended December 31, 1997 (10/17/2001) *$13,293
2002-P-0025   Forest County Potawatomi Community, Fiscal Year Ended September 30, 2001 (10/22/2001)
2002-P-0031   Albuquerque Area Indian Health Board, Inc., Fiscal Year Ended September 30, 1999
              (10/24/2001) *$91,265
2002-P-0032   Albuquerque Area Indian Health Board, Inc., Fiscal Year Ended September 30, 2002
              (10/24/2001) *$29,933
2002-P-0033   Mooretown Rancheria of Maidu Indians of California, Fiscal Year Ended December 31, 2001
              (10/26/2001)
2002-P-0036   Eastern Shoshone Tribe of the Wind River Reservation, Fiscal Year Ended December 31, 1997
              (10/31/2001)
2002-P-0037   Eastern Shoshone Tribe of the Wind River Reservation, Fiscal Year Ended December 31, 1998
              (10/31/2001) *$697,899
2002-P-0038   Eastern Shoshone Tribe of the Wind River Reservation, Fiscal Year Ended December 31, 1999
              (10/31/2001)
2002-P-0039   Eastern Shoshone Tribe of the Wind River Reservation, Fiscal Year Ended December 31, 2000
              (10/31/2001)
2002-P-0040   Eastern Shoshone Tribe of the Wind River Reservation, Fiscal Year Ended December 31, 2001
              (10/31/2001)
2002-P-0041   Sokaogon Chippewa Community, Mole Lake Band, Fiscal Year Ended September 30, 1998
              (10/31/2001)



  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        37
                                           Return to
                                       Table of Contents
Appendix 2 (continued)



2002-P-0042   Sokaogon Chippewa Community, Mole Lake Band, Fiscal Year Ended September 30, 1999
              (10/31/2001)
2002-P-0043   Sokaogon Chippewa Community, Mole Lake Band, Fiscal Year Ended September 30, 2000
              (10/31/2001)
2002-P-0045   Nisqually Indian Tribe, Fiscal Year Ended December 31, 1999 (10/31/2001) *$63,666
2002-P-0046   Nisqually Indian Tribe, Fiscal Year Ended December 31, 2000 (10/31/2001) *$11,061
2002-P-0049   Delaware Tribe of Indians, Fiscal Year Ended December 31, 1999 (11/01/2001)
2002-P-0050   Delaware Tribe of Indians, Fiscal Year Ended December 31, 2000 (11/01/2001)
2002-P-0051   Delaware Tribe of Indians, Fiscal Year Ended December 31, 2001 (11/01/2001)
2002-P-0053   Grand Portage Reservation, Fiscal Year Ended December 31, 2001 (11/05/2001) *$58,533
2002-P-0055   Jamestown S’Klallam Tribe, Fiscal Year Ended September 30, 2001 (11/06/2001)
2002-P-0064   Southern Ute Community Action Programs, Inc., Fiscal Year Ended December 31, 2001
              (11/13/2001)
2002-P-0065   Southern Ute Community Action Programs, Inc., Fiscal Year Ended December 31, 2002
              (11/13/2001)
2002-P-0066   Pueblo of Pojoaque, Fiscal Year Ended September 30, 2000 (11/14/2001) *$11,983
2002-P-0067   Pueblo of Pojoaque, Fiscal Year Ended September 30, 2001 (11/14/2001) *$11,380
2002-P-0068   Blue Lake Rancheria, Fiscal Year Ended December 31, 2001 (11/15/2001) *$49,513
2002-P-0069   Rincon Band of Luiseno Mission Indians, Fiscal Year Ended December 31, 2001 (11/15/2001)
2002-P-0070   Quileute Tribal Council, Fiscal Year Ended September 30, 1998 (11/15/2001)
2002-P-0071   Quileute Tribal Council, Fiscal Year Ended September 30, 1999 (11/15/2001)
2002-P-0072   Quileute Tribal Council, Fiscal Year Ended September 30, 2000 (11/15/2001)
2002-P-0073   Organized Village of Kake, Fiscal Year Ended December 31, 1999 (11/15/2001) *$3,387
2002-P-0079   Muscogee (Creek) Nation, Fiscal Year Ended September 30, 2000 (11/20/2001) *$70,385
2002-P-0080   Muscogee (Creek) Nation, Fiscal Year Ended September 30, 2001 (11/20/2001) *$6,594
2002-P-0082   Cahto Tribe of Laytonville Rancheria, Fiscal Year Ended December 31, 2001 (11/27/2001)
              *$7,939
2002-P-0083   Yakutat Tlingit Tribe, Fiscal Year Ended December 31, 2001 (11/27/2001) *$3,484
2002-P-0085   Association of Village Council Presidents, Inc., Fiscal Year Ended December 31, 1999
              (11/27/2001)
2002-P-0086   Association of Village Council Presidents, Fiscal Year Ended December 31, 2001 (11/27/2001)
2002-P-0087   Sac and Fox Tribe of the Mississippi in Iowa, Fiscal Year Ended September 30, 2001
              (11/29/2001) *$203,027
2002-P-0088   Sac and Fox Tribe of the Mississippi in Iowa, Fiscal Year Ended September 30, 2002
              (11/29/2001) *$352,320
2002-P-0089   Pueblo of Santo Domingo, Fiscal Year Ended September 30, 2002 (11/29/2001)
2002-P-0093   Fort Sill Apache Tribe, Fiscal Year Ended December 31, 2001 (12/05/2001) *$2,273
2002-P-0094   Fort Sill Apache Tribe, Fiscal Year Ended December 31, 2000 (12/05/2001)
2002-P-0098   Pueblo of Zia, Fiscal Year Ending December 31, 1998 (12/17/2001)
2002-P-0099   Pueblo of Zia, Fiscal Year Ended December 31, 1999 (12/17/2001)
2002-P-0100   Pueblo of Zia, Fiscal Year Ended December 31, 2000 (12/17/2001)
2002-P-0101   Pueblo of Zia, Fiscal Year Ended December 31, 2001 (12/17/2001)
2002-P-0103   Pueblo of Laguna, Fiscal Year Ended February 28, 2000 (12/18/2001)
2002-P-0104   Pueblo of Laguna, Fiscal Year Ended February 28, 2001 (12/18/2001)
2002-P-0105   Pueblo of Laguna, Fiscal Year Ended February 28, 2002 (12/18/2001)


  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        38
                                            Return to
                                        Table of Contents
                                                                         Appendix 2 (continued)



2002-P-0112   Reno-Sparks Indian Colony, Fiscal Year Ended December 31, 2001 (12/21/2001)
2002-P-0113   Reno-Sparks Indian Colony, Fiscal Year Ended December 31, 2002 (12/21/2001)
2002-P-0114   Houlton Band of Maliseet Indians, Fiscal Year Ended September 30, 1999 (12/21/2001)
              *$155,668
2002-P-0115   Houlton Band of Maliseet Indians, Fiscal Year Ended September 30, 2000 (12/21/2001)
              *$157,257
2002-P-0116   Houlton Band of Maliseet Indians, Fiscal Year Ended September 30, 2001 (12/21/2001)
2002-P-0117   Houlton Band of Maliseet Indians, Fiscal Year Ended September 30, 2002 (12/21/2001)
2002-P-0118   Oneida Tribe of Indians of Wisconsin, Fiscal Year Ended September 30, 1998 (12/21/2001)
2002-P-0119   Oneida Tribe of Indians of Wisconsin, Fiscal Year Ended September 30, 1999 (12/21/2001)
2002-P-0120   Oneida Tribe of Indians of Wisconsin, Fiscal Year Ended September 30, 2000 (12/21/2001)
2002-P-0121   Oneida Tribe of Indians of Wisconsin, Fiscal Year Ended September 30, 2001 (12/21/2001)
2002-P-0122   Oneida Tribe of Indians of Wisconsin, Fiscal Year Ended September 30, 2002 (12/21/2001)
2002-P-0123   Bay Mills Indian Community, Fiscal Year Ended December 31, 2001 (12/21/2001)
2002-P-0124   Sitka Tribe of Alaska, Fiscal Year Ended December 31, 2001 (12/21/2001) *$56,520
2002-P-0125   Ramona Band of Cahuilla Mission Indians of California, Fiscal Year Ended
              December 31, 2001 (01/02/2002)
2002-P-0126   Duckwater Shoshone Tribe, Fiscal Year Ended December 31, 2001 (01/02/2002)
2002-P-0127   Duckwater Shoshone Tribe, Fiscal Year Ended December 31, 1999 (01/02/2002)
2002-P-0128   Stone Child College, Fiscal Year Ended September 30, 1997 (01/02/2002)
2002-P-0129   Stone Child College, Fiscal Year Ended September 30, 1998 (01/02/2002)
2002-P-0130   Stone Child College, Fiscal Year Ended September 30, 2000 (01/02/2002) *$16,399
2002-P-0131   Stone Child College, Fiscal Year Ended September 30, 2001 (01/02/2002) *$22,157
2002-P-0132   Great Lakes Indian Fish and Wildlife Commission, Fiscal Year Ended December 31, 2001
              (01/02/2002)
2002-P-0133   Little River Band of Ottawa Indians, Fiscal Year Ended December 31, 2001 (01/02/2002)
              *$296,027
2002-P-0134   Little River Band of Ottawa Indians, Fiscal Year Ended December 31, 2002 (01/02/2002)
2002-P-0135   San Juan Pueblo, Fiscal Year Ended December 31, 1998 (01/02/2002)
2002-P-0136   San Juan Pueblo, Fiscal Year Ended December 31, 1999 (01/02/2002)
2002-P-0143   Oglala Lakota College, Fiscal Year Ended September 30, 2001 (01/03/2002)
2002-P-0144   Native Village of Kwigillingok, Fiscal Year Ended December 31, 1998 (01/04/2002)
2002-P-0145   Native Village of Kwigillingok, Fiscal Year Ended December 31, 1999 (01/04/2002) *$4,913
2002-P-0146   Native Village of Kwigillingok, Fiscal Year Ended December 31, 2000 (01/04/2002) *$13,358
2002-P-0147   Native Village of Kwigillingok, Fiscal Year Ended December 31, 2001 (01/04/2002)
2002-P-0148   Native Village of Kwigillingok, Fiscal Year Ended December 31, 2002 (01/04/2002)
2002-P-0153   Coast Indian Community of the Resighini Rancheria, Fiscal Year Ended December 31, 1999
              (01/04/2002) *$16,997
2002-P-0154   Coast Indian Community of the Resighini Rancheria, Fiscal Year Ended December 31, 2000
              (01/04/2002)
2002-P-0155   Dull Knife Memorial College, Fiscal Year Ended June 30, 1999 (01/04/2002)
2002-P-0156   Dull Knife Memorial College, Fiscal Year Ended June 30, 2001 (01/04/2002)
2002-P-0157   Dull Knife Memorial College, Fiscal Year Ended June 30, 2002 (01/04/2002)
2002-P-0158   Native Village of Tyonek, Fiscal Year Ended September 30, 2001 (01/04/2002)
2002-P-0159   Native Village of Tyonek, Fiscal Year Ended September 30, 2002 (01/04/2002)
2002-P-0160   San Carlos Apache Tribe, Fiscal Year Ended September 30, 1999 (01/04/2002)

  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        39
                                          Return to
                                      Table of Contents
Appendix 2 (continued)



2002-P-0161   San Carlos Apache Tribe, Fiscal Year Ended September 30, 1997 (01/04/2002)
2002-P-0162   Red Cliff Band of Lake Superior Chippewa Indians, Fiscal Year Ended September 30, 1997
              (01/07/2002)
2002-P-0163   Red Cliff Band of Lake Superior Chippewa Indians, Fiscal Year Ended September 30, 1998
              (01/07/2002)
2002-P-0164   Red Cliff Band of Lake Superior Chippewa Indians, Fiscal Year Ended September 30, 1999
              (01/07/2002)
2002-P-0165   Red Cliff Band of Lake Superior Chippewa Indians, Fiscal Year Ended September 30, 2000
              (01/07/2002)
2002-P-0166   Red Cliff Band of Lake Superior Chippewa Indians, Fiscal Year Ended September 30, 2001
              (01/07/2002)
2002-P-0170   Owens Valley Indian Water Commission, Fiscal Year Ended June 30, 2002 (01/08/2002)
              *$610
2002-P-0171   Round Valley Indian Tribe, Fiscal Year Ended December 31, 2000 (01/08/2002)
2002-P-0172   Round Valley Indian Tribe, Fiscal Year Ended December 31, 2001 (01/08/2002)
2002-P-0173   Kickapoo Tribe in Kansas, Fiscal Year Ended December 31, 1996 (01/10/2002)
2002-P-0174   Kickapoo Tribe in Kansas, Fiscal Year Ended December 31, 1997 (01/10/2002)
2002-P-0175   Kickapoo Tribe in Kansas, Fiscal Year Ended December 31, 1998 (01/10/2002)
2002-P-0176   Kickapoo Tribe in Kansas, Fiscal Year Ended December 31, 1999 (01/10/2002)
2002-P-0177   Kickapoo Tribe in Kansas, Fiscal Year Ended December 31, 2000 (01/10/2002)
2002-P-0178   Kickapoo Tribe in Kansas, Fiscal Year Ended December 31, 2001 (01/10/2002)
2002-P-0179   Yavapai-Apache Tribe, Fiscal Year Ended December 31, 1997 (01/14/2002)
2002-P-0180   Yavapai-Apache Tribe, Fiscal Year Ended December 31, 1998 (01/11/2002) *$25,926
2002-P-0181   Yavapai-Apache Tribe, Fiscal Year Ended December 31, 1999 (01/11/2002) *$30,429
2002-P-0182   Yavapai-Apache Tribe, Fiscal Year Ended December 31, 2000 (01/11/2002) *$1,865
2002-P-0183   Yavapai-Apache Tribe, Fiscal Year Ended December 31, 2001 (01/11/2002)
2002-P-0190   Leisnoi Village (a.k.a. Woody Island), Fiscal Year Ended September 30, 2001 (01/14/2002)
2002-P-0191   Leisnoi Village (a.k.a. Woody Island), Fiscal Year Ended September 30, 2002 (01/14/2002)
2002-P-0192   Sitting Bull College, Fiscal Year Ended June 30, 1998 (01/15/2002)
2002-P-0193   Sitting Bull College, Fiscal Year Ended June 30, 1999 (01/15/2002)
2002-P-0194   Sitting Bull College, Fiscal Year Ended June 30, 2000 (01/15/2002)
2002-P-0195   Sitting Bull College, Fiscal Year Ended June 30, 2001 (01/15/2002)
2002-P-0196   Middletown Rancheria Band of Pomo Indians of California, Fiscal Year Ended
              December 31, 2000 (01/15/2002)
2002-P-0197   Pueblo of Acoma, Fiscal Year Ended December 31, 2000 (01/15/2002) *$63,850
2002-P-0198   Osage Nation, Fiscal Year Ended September 30, 2000 (01/15/2002) *$47,795
2002-P-0199   Osage Nation, Fiscal Year Ended September 30, 2001 (01/15/2002) *$281,593
2002-P-0200   Lac du Flambeau Band of Lake Superior Chippewa Indians, Fiscal Year Ended
              September 30, 2001 (01/15/2002)
2002-P-0201   Lac du Flambeau Band of Lake Superior Chippewa Indians, Fiscal Year Ended
              September 30, 2002 (01/15/2002)
2002-P-0202   Kaibab Band of Paiute Indians, Fiscal Year Ended December 31, 2001 (01/17/2002) *$22,102
2002-P-0204   Torres-Martinez Band of Cahuilla Mission Indians, Fiscal Year Ended December 31, 2002
              (01/18/2002)
2002-P-0206   Squaxin Island Tribe, Fiscal Year Ended September 30, 1999 (01/22/2002) *$5,433


  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        40
                                           Return to
                                       Table of Contents
                                                                        Appendix 2 (continued)



2002-P-0207   Squaxin Island Tribe, Fiscal Year Ended September 30, 2000 (01/22/2002)
2002-P-0208   Upper Lake Band of Pomo Indians of California, Fiscal Year Ended December 31, 2000
              (01/22/2002)
2002-P-0209   Upper Lake Band of Pomo Indians of California, Fiscal Year Ended December 31, 2001
              (01/22/2002)
2002-P-0210   Upper Lake Band of Pomo Indians of California, Fiscal Year Ended December 31, 2002
              (01/22/2002)
2002-P-0211   1854 Authority, Fiscal Year Ended December 31, 2001 (01/24/2002) *$10,263
2002-P-0212   1854 Authority, Fiscal Year Ended December 31, 2002 (01/24/2002)
2002-P-0213   Augustine Band of Cahuilla Mission Indians of California, Fiscal Year Ended
              December 31, 2001 (01/24/2002)
2002-P-0214   Chippewa Cree Tribe of the Rocky Boys Reservation, Fiscal Year Ended September 30, 2001
              (01/24/2002)
2002-P-0216   Scotts Valley Band of Pomo Indians, Fiscal Year Ended December 31, 2001 (01/25/2002)
2002-P-0217   Scotts Valley Band of Pomo Indians, Fiscal Year Ended December 31, 2002 (01/25/2002)
2002-P-0218   Hoopa Valley Public Utilities, Fiscal Year Ended September 30, 2000 (01/25/2002) *$1,499
2002-P-0219   Hoopa Valley Public Utilities, Fiscal Year Ended September 30, 2001 (01/25/2002)
2002-P-0220   Lummi Indian Business Council, Fiscal Year Ended December 31, 2000 (01/25/2002)
2002-P-0221   Lummi Indian Business Council, Fiscal Year Ended December 31, 2001 (01/25/2002)
2002-P-0223   Confederated Tribes of Siletz Indians, Fiscal Year Ended December 31, 2001 (01/30/2002)
2002-P-0224   Berry Creek Rancheria of Maidu Indians, Fiscal Year Ended December 31, 2002 (01/30/2002)
2002-P-0225   Berry Creek Rancheria of Maidu Indians, Fiscal Year Ended December 31, 2001 (01/30/2002)
2002-P-0226   Organized Village of Kwethluk, Fiscal Year Ended December 31, 1997 (01/30/2002) *$18,562
2002-P-0227   Organized Village of Kwethluk, Fiscal Year Ended December 31, 1998 (01/30/2002) *$82,678
2002-P-0228   Organized Village of Kwethluk, Fiscal Year Ended December 31, 1999 (01/30/2002) *$29,988
2002-P-0229   Organized Village of Kwethluk, Fiscal Year Ended December 31, 2000 (01/30/2002) *$56,044
2002-P-0230   Organized Village of Kwethluk, Fiscal Year Ended December 31, 2001 (01/30/2002) *$37,538
2002-P-0231   Organized Village of Kwethluk, Fiscal Year Ended December 31, 2002 (01/30/2002)
2002-P-0232   Trenton Indian Service Area, Fiscal Year Ended September 30, 1998 (01/31/2002) *$42,599
2002-P-0233   Trenton Indian Service Area, Fiscal Year Ended September 30, 1999 (01/31/2002) *$29,047
2002-P-0234   Trenton Indian Service Area, Fiscal Year Ended September 30, 2001 (01/31/2002)
2002-P-0235   Trenton Indian Service Area, Fiscal Year Ended September 30, 2000 (01/31/2002)
2002-P-0236   Inupiat Community of the Arctic Slope, Fiscal Year Ended December 31, 2001 (01/31/2002)
              *$847,762
2002-P-0237   Quinault Indian Nation, Fiscal Year Ended September 30, 2001 (01/31/2002) *$37,957
2002-P-0238   InterTribal Bison Cooperative, Fiscal Year Ended March 31, 2001 (02/01/2002)
2002-P-0239   InterTribal Bison Cooperative, Fiscal Year Ended March 31, 2002 (02/01/2002)
2002-P-0240   Hannahville Indian Community, Fiscal Year Ended September 30, 2001 (02/04/2002)
              *$87,451
2002-P-0241   Manchester Band of Pomo Indians, Fiscal Year Ended December 31, 2001 (02/05/2002)
              *$8,726
2002-P-0242   Paiute Indian Tribe of Utah, Fiscal Year Ended December 31, 2001 (02/05/2002) *$3,769
2002-P-0243   Paiute Indian Tribe of Utah, Fiscal Year Ended December 31, 2002 (02/05/2002) *$101,038
2002-P-0244   Leech Lake Band of Ojibwe, Fiscal Year Ended September 30, 2001 (02/06/2002) *$95,460
2002-P-0245   Grand Traverse Band of Ottawa and Chippewa Indians, Fiscal Year Ended September 30,
              1999 (02/11/2002) *$84,799
  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        41
                                           Return to
                                       Table of Contents
Appendix 2 (continued)




2002-P-0246   Grand Traverse Band of Ottawa and Chippewa Indians, Fiscal Year Ended
              September 30, 1998 (02/11/2002) *$128,628
2002-P-0247   Grand Traverse Band of Ottawa and Chippewa Indians, Fiscal Year Ended
              September 30, 2000 (02/11/2002)
2002-P-0248   Grand Traverse Band of Ottawa and Chippewa Indians, Fiscal Year Ended
              September 30, 2001 (02/11/2002)
2002-P-0249   Grand Traverse Band of Ottawa and Chippewa Indians, Fiscal Year Ended
              September 30, 2002 (02/11/2002)
2002-P-0250   Pinoleville Band of Pomo Indians, Fiscal Year Ended December 31, 2000 (02/12/2002)
2002-P-0251   Pinoleville Band of Pomo Indians, Fiscal Year Ended December 31, 2001 (02/12/2002)
2002-P-0252   Noorvik IRA Council, Fiscal Year Ended December 31, 2001 (02/12/2002)
2002-P-0253   Noorvik IRA Council, Fiscal Year Ended December 31, 2002 (02/12/2002)
2002-P-0256   Red Lake Band of Chippewa Indians, Fiscal Year Ended September 30, 1998 (02/12/2002)
2002-P-0257   Red Lake Band of Chippewa Indians, Fiscal Year Ended September 30, 1999 (02/12/2002)
2002-P-0258   Red Lake Band of Chippewa Indians, Fiscal Year Ended September 30, 2000
2002-P-0259   Red Lake Band of Chippewa Indians, Fiscal Year Ended September 30, 2001 (02/12/2002)
2002-P-0260   Red Lake Band of Chippewa Indians, Fiscal Year Ended September 30, 2002 (02/12/2002)
2002-P-0261   Kialegee Tribal Town, Fiscal Year Ended September 30, 2001 (02/12/2002) *$16,461
2002-P-0263   Reservation Transportation Authority, Fiscal Year Ended September 30, 2001 (02/13/2002)
2002-P-0264   Reservation Transportation Authority, Fiscal Year Ended September 30, 2002 (02/13/2002)
2002-P-0265   Shingle Springs Band of Miwok Indians, Fiscal Year Ended December 31, 2002 (02/13/2002)
2002-P-0266   Havasupai Tribal Council, Fiscal Year Ended September 30, 1994 (02/13/2002)
2002-P-0267   Havasupai Tribal Council, Fiscal Year Ended September 30, 1995 (02/13/2002)
2002-P-0268   Havasupai Tribal Council, Fiscal Year Ended September 30, 1996 (02/13/2002) *$215,568
2002-P-0269   Havasupai Tribal Council, Fiscal Year Ended September 30, 1997 (02/13/2002) *$527,425
2002-P-0270   Havasupai Tribal Council, Fiscal Year Ended September 30, 1998 (02/13/2002) *$960,672
2002-P-0272   Cherokee Nation, Fiscal Year Ended September 30, 1997 (02/19/2002)
2002-P-0273   Cherokee Nation, Fiscal Year Ended September 30, 1998 (02/19/2002)
2002-P-0274   Cherokee Nation, Fiscal Year Ended September 30, 1999 (02/19/2002)
2002-P-0275   Cherokee Nation, Fiscal Year Ended September 30, 2000 (02/19/2002)
2002-P-0276   Cherokee Nation, Fiscal Year Ended September 30, 2002 (02/19/2002)
2002-P-0277   Cherokee Nation, Fiscal Year Ended September 30, 2001 (02/19/2002) *$1,435,811
2002-P-0278   Upper Sioux Community, Fiscal Year Ended September 30, 1995 (02/19/2002)
2002-P-0279   Upper Sioux Community, Fiscal Year Ended September 30, 1996 (02/19/2002)
2002-P-0280   Upper Sioux Community, Fiscal Year Ended September 30, 1997 (02/19/2002)
2002-P-0281   Upper Sioux Community, Fiscal Year Ended September 30, 1998 (02/19/2002)
2002-P-0282   Upper Sioux Community, Fiscal Year Ended September 30, 1999 (02/19/2002)
2002-P-0283   Cook Inlet Tribal Council, Inc., Fiscal Year Ended September 30, 2002 (02/19/2002) *$30,444
2002-P-0284   Hopland Band of Pomo Indians, Fiscal Year Ended December 31, 2000 (02/19/2002)
2002-P-0285   Wyandotte Tribe of Oklahoma, Fiscal Year Ended September 30, 2001 (02/20/2002) *$91,731
2002-P-0286   Wyandotte Tribe of Oklahoma, Fiscal Year Ended September 30, 2002 (02/20/2002)
              *$112,419
2002-P-0287   Orutsararmuit Native Council, Fiscal Year Ended December 31, 1996 (02/22/2002)
2002-P-0288   Orutsararmuit Native Council, Fiscal Year Ended December 31, 1997 (02/22/2002)

  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        42
                                           Return to
                                       Table of Contents
                                                                       Appendix 2 (continued)



2002-P-0289   Orutsararmuit Native Council, Fiscal Year Ended December 31, 1998 (02/22/2002)
2002-P-0290   Orutsararmuit Native Council, Fiscal Year Ended December 31, 1999 (02/22/2002)
2002-P-0291   Orutsararmuit Native Council, Fiscal Year Ended December 31, 2000 (02/22/2002)
2002-P-0292   Orutsararmuit Native Council, Fiscal Year Ended December 31, 2001 (02/22/2002)
2002-P-0293   Orutsararmuit Native Council, Fiscal Year Ended December 31, 2002 (02/22/2002)
2002-P-0294   Central Council of Tlingit and Haida Indian Tribes of Alaska, Fiscal Year Ended
              December 31, 2001 (02/22/2002)
2002-P-0295   Central Council of Tlingit and Haida Indian Tribes of Alaska, Fiscal Year Ended
              December 31, 2002 (02/22/2002)
2002-P-0296   Metlakatla Indian Community, Fiscal Year Ended September 30, 2002 (02/22/2002) *$73,864
2002-P-0297   California Valley Miwok Tribe, Fiscal Year Ended December 31, 2002 (02/25/2002)
2002-P-0298   Yerington Paiute Tribe, Fiscal Year Ended December 31, 2001 (02/25/2002)
2002-P-0299   Confederated Tribes of the Grand Ronde Community of Oregon, Fiscal Year Ended
              December 31, 2001 (02/25/2002) *$119,801
2002-P-0302   Modoc Tribe of Oklahoma, Fiscal Year Ended September 30, 2001 (02/27/2002) *$89,188
2002-P-0303   Modoc Tribe of Oklahoma, Fiscal Year Ended September 30, 2002 (02/27/2002) *$55,147
2002-P-0304   Nulato Tribal Council, Fiscal Year Ended September 30, 2002 (02/27/2002)
2002-P-0308   Tanacross Village Council, Fiscal Year Ended September 30, 2001 (02/27/2002)
2002-P-0309   Tanacross Village Council, Fiscal Year Ended September 30, 2002 (02/27/2002)
2002-P-0310   Suquamish Tribe, Fiscal Year Ended December 31, 2000 (02/27/2002) *$57,215
2002-P-0311   Suquamish Tribe, Fiscal Year Ended December 31, 2001 (02/27/2002) *$138,250
2002-P-0312   Suquamish Tribe, Fiscal Year Ended December 31, 2002 (02/27/2002) *$113,227
2002-P-0313   Manzanita Band of Mission Indians, Fiscal Year Ended December 31, 1998 (02/28/2002)
2002-P-0314   Manzanita Band of Mission Indians, Fiscal Year Ended December 31, 1999 (02/28/2002)
2002-P-0315   Manzanita Band of Mission Indians, Fiscal Year Ended December 31, 2000 (02/28/2002)
              *$4,378
2002-P-0316   Manzanita Band of Mission Indians, Fiscal Year Ended December 31, 2001 (02/28/2002)
              *$4,768
2002-P-0317   Manzanita Band of Mission Indians, Fiscal Year Ended December 31, 2002 (02/28/2002)
              *$4,768
2002-P-0318   Smith River Rancheria of California, Fiscal Year Ended December 31, 2001 (02/28/2002)
2002-P-0319   Smith River Rancheria of California, Fiscal Year Ended December 31, 2002 (02/28/2002)
2002-P-0324   Pueblo de San Ildefonso, Fiscal Year Ended December 31, 2000 (03/05/2002)
2002-P-0325   Pueblo de San Ildefonso, Fiscal Year Ended December 31, 2001 (03/05/2002)
2002-P-0326   Peoria Tribe of Indians of Oklahoma, Fiscal Year Ended March 31, 2002 (03/06/2002)
2002-P-0329   Keweenaw Bay Indian Community, Fiscal year Ended September 30, 2001 (03/06/2002)
              *$109,144
2002-P-0330   Keweenaw Bay Indian Community, Fiscal Year Ended September 30, 2002 (03/06/2002)
              *$112,436
2002-P-0332   Boise Forte Band of Chippewa Indians, Fiscal Year Ended September 30, 2001 (03/06/2002)
              *$10,986
2002-P-0333   Boise Forte Band of Chippewa Indians, Fiscal Year Ended September 30, 2002 (03/06/2002)
              *$18,447
2002-P-0336   Crow Tribe of Indians, Fiscal Year Ended September 30, 1998 (03/07/2002)
2002-P-0337   Crow Tribal Council, Fiscal Year Ended September 30, 2000 (03/07/2002) *$474,174

  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        43
                                           Return to
                                       Table of Contents
Appendix 2 (continued)



2002-P-0338   Moapa Band of Paiutes, Fiscal Year Ended December 31, 2002 (03/07/2002) *$3,863
2002-P-0340   Menominee Indian Tribe of Wisconsin, Fiscal Year Ended September 30, 2001 (03/07/2002)
2002-P-0342   AK-Chin Indian Community, Fiscal Year Ended December 31, 1999 (03/07/2002) *$3,746
2002-P-0343   AK-Chin Indian Community, Fiscal Year Ended December 31, 1998 (03/07/2002)
2002-P-0344   Confederated Tribes of the Warm Springs Reservation of Oregon, Fiscal Year Ended
              December 31, 2000 (03/07/2002)
2002-P-0345   Confederated Tribes of the Warm Springs Reservation of Oregon, Fiscal Year Ended
              December 31, 2001 (03/07/2002)
2002-P-0346   Lower Elwha Klallam Tribe, Fiscal Year Ended September 30, 2002 (03/08/2002) *$17,537
2002-P-0347   Pribilof Island Aleut Community, St. George Island, Fiscal Year Ended September 30, 2000
              (03/08/2002) *$23,320
2002-P-0348   Pribilof Island Aleut Community, St. George Island, Fiscal Year Ended September 30, 2001
              (03/08/2002) *$20,463
2002-P-0349   Pueblo of Taos, Fiscal Year Ended December 31, 1997 (03/11/2002) *$148,757
2002-P-0350   Pueblo of Taos, Fiscal Year Ended December 31, 1998 (03/11/2002) *$72,325
2002-P-0351   Alamo Navajo School Board, Inc., Fiscal Year Ended June 30, 2001 (03/12/2002) *$21,628
2002-P-0352   Alamo Navajo School Board, Inc., Fiscal Year Ended June 30, 2002 (03/12/2002)
2002-P-0353   White Earth Reservation, Fiscal Year Ended September 30, 2000 (03/12/2002)
2002-P-0354   White Earth Reservation, Fiscal Year Ended September 30, 2001 (03/12/2002)
2002-P-0355   Sault Ste. Marie Tribe of Chippewa Indians, Fiscal Year Ended December 31, 2001
              (03/12/2002) *$44,683
2002-P-0357   Standing Rock Sioux Tribe, Fiscal Year Ended September 30, 1997 (03/13/2002) *$220,113
2002-P-0358   Standing Rock Sioux Tribe, Fiscal Year Ended September 30, 1998 (03/13/2002) *$39,824
2002-P-0359   Standing Rock Sioux Tribe, Fiscal Year Ended September 30, 1999 (03/13/2002)
2002-P-0360   Standing Rock Sioux Tribe, Fiscal Year Ended September 30, 2001 (03/13/2002)
2002-P-0361   United Tribes Technical College, Fiscal Year Ended June 30, 2000 (03/13/2002)
2002-P-0362   United Tribes Technical College, Fiscal Year Ended June 30, 2001 (03/13/2002)
2002-P-0363   Sac and Fox Nation of Missouri, Fiscal Year Ended September 30, 2001 (03/13/2002)
              *$25,875
2002-P-0364   Sac and Fox Nation of Missouri, Fiscal Year Ended September 30, 2002 (03/13/2002)
              *$25,875
2002-P-0365   Saint Regis Mohawk Tribe, Fiscal Year Ended December 31, 2002 (03/13/2002)
2002-P-0366   Sac and Fox Nation of Oklahoma, Fiscal Year Ended September 30, 2000 (03/13/2002)
              *$155,936
2002-P-0367   Fond du Lac Reservation Business Committee, Fiscal Year Ended September 30, 2000
              (03/13/2002) *$178,109
2002-P-0368   Fond du Lac Band of Lake Superior Chippewa Indians, Fiscal Year Ended
              September 30, 2001 (03/13/2002)
2002-P-0369   Fond du Lac Band of Lake Superior Chippewa Indians, Fiscal Year Ended
              September 30, 2002 (03/13/2002)
2002-P-0370   United Keetoowah Band of Cherokee Indians in Oklahoma, Fiscal Year Ended
              September 30, 2000 (03/14/2002)
2002-P-0371   United Keetoowah Band of Cherokee Indians in Oklahoma, Fiscal Year Ended
              September 30, 2001 (03/14/2002)
2002-P-0372   Cuyapaipe Band of Mission Indians, Fiscal Year Ended December 31, 2001 (03/18/2002)
2002-P-0373   Cuyapaipe Band of Mission Indians, Fiscal Year Ended December 31, 2002 (03/18/2002)

  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        44
                                           Return to
                                       Table of Contents
                                                                        Appendix 2 (continued)



2002-P-0374   Newtok Traditional Council, Fiscal Year Ended December 31, 2001 (03/15/2002)
2002-P-0375   Newtok Traditional Council, Fiscal Year Ended December 31, 2002 (03/15/2002)
2002-P-0376   Citizen Potawatomi Nation, Fiscal Year Ended September 30, 2000 (03/20/2002) *$240,381
2002-P-0377   Citizen Potawatomi Nation, Fiscal Year Ended September 30, 2001 (03/20/2002) *$35,746
2002-P-0378   Citizen Potawatomi Nation, Fiscal Year Ended September 30, 2002 (03/20/2002)
2002-P-0382   Cherokee Boys Club, Inc., Fiscal Year Ended June 30, 2000 (03/20/2002)
2002-P-0383   Cherokee Boys Club, Inc., Fiscal Year Ended June 30, 2002 (03/20/2002)
2002-P-0384   Knik Tribal Council, Fiscal Year Ended June 30, 2001 (03/20/2002)
2002-P-0385   Knik Tribal Council, Fiscal Year Ended June 30, 2002 (03/20/2002)
2002-P-0386   Chilkoot Indian Association, Fiscal Year Ended December 31, 2002 (03/20/2002) *$123,947
2002-P-0387   Apache Tribe of Oklahoma, Fiscal Year Ended December 31, 2001 (03/21/2002) *$16,670
2002-P-0389   Pueblo of San Felipe, Fiscal Year Ended December 31, 2000 (03/25/2002)
2002-P-0390   Pueblo of San Felipe, Fiscal Year Ended December 31, 2001 (03/25/2002)
2002-P-0395   Native Village of Eyak, Fiscal Year Ended September 30, 2000 (03/26/2002)
2002-P-0396   Native Village of Eyak, Fiscal Year Ended September 30, 2002 (03/26/2002)
2002-P-0397   Inter-Tribal Council of Michigan, Fiscal Year Ended September 30, 2002 (03/26/2002)
2002-P-0398   Quapaw Tribe of Oklahoma, Fiscal Year Ended September 30, 1996 (03/26/2002)
2002-P-0399   Quapaw Tribe of Oklahoma, Fiscal Year Ended September 30, 1997 (03/26/2002)
2002-P-0400   Quapaw Tribe of Oklahoma, Fiscal Year Ended September 30, 1998 (03/26/2002)
2002-P-0401   Quapaw Tribe of Oklahoma, Fiscal Year Ended September 30, 1999 (03/26/2002)
2002-P-0402   Winnebago Tribe of Nebraska, Fiscal Year Ended September 30, 1997 (03/26/2002) *$97,477
2002-P-0403   Winnebago Tribe of Nebraska, Fiscal Year Ended September 30, 1998 (03/26/2002)
2002-P-0404   Winnebago Tribe of Nebraska, Fiscal Year Ended September 31, 1999 (03/26/2002)
2002-P-0405   Winnebago Tribe of Nebraska, Fiscal Year Ended September 30, 2000 (03/26/2002)
              *$388,121
2002-P-0406   Winnebago Tribe of Nebraska, Fiscal Year Ended September 30, 2001 (03/26/2002)
              *$167,767
2002-P-0407   Redwood Valley Little River Band of Pomo Indians, Fiscal Year Ended December 31, 2001
              (03/27/2002)
2002-P-0408   Redwood Valley Little River Band of Pomo Indians, Fiscal Year Ended December 31, 2002
              (03/27/2002)
2002-P-0409   Mechoopda Indian Tribe of Chico Rancheria of California, Fiscal Year Ended
              December 31, 2002 (03/27/2002)
2002-P-0410   Skagit System Cooperative, Fiscal Year Ended December 31, 2002 (03/27/2002) *$3,454
2002-P-0411   Point No Point Treaty Council, Fiscal Year Ended December 31, 2002 (03/27/2002)
2002-P-1001   Ho Chunk Nation, Fiscal Year Ended June 30, 1998 (10/01/2001)
2002-P-1002   Ho Chunk Nation, Fiscal Year Ended June 30, 1997 (10/01/2001)
2002-P-1003   Ho Chunk Nation, Fiscal Year Ended June 30, 1999 (10/01/2001)
2002-P-1004   Ho Chunk Nation, Fiscal Year Ended June 30, 2000 (10/01/2001)
2002-P-1005   Ho Chunk Nation, Fiscal Year Ended June 30, 2001 (10/01/2001) *$19,219
2002-P-1007   Kashia Band of Pomo Indians of the Stewarts Point Rancheria, Fiscal Year Ended
              December 31, 2001 (10/01/2001)
2002-P-1008   Assiniboine and Sioux Tribes, Fiscal Year Ended September 30, 1999 (10/09/2001) *$514,792




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        45
                                         Return to
                                     Table of Contents
Appendix 2 (continued)



Bureau of Reclamation
2002-P-0097   North Dakota Water Commission, Fiscal Year Ended June 30, 2002 (12/17/2001)

Fish and Wildlife Service
2002-P-0007   Illinois Department of Natural Resources, Fiscal Year Ended June 30, 2000 (10/10/2001)
2002-P-0008   Tennessee Wildlife Resources Agency, Fiscal Year Ended June 30, 2001 (10/10/2001)
2002-P-0023   Pennsylvania Fish and Boat Commission, Fiscal Year Ended June 30, 2002 (10/17/2001)
2002-P-0024   West Virginia Division of Natural Resources, Fiscal Year Ended June 30, 2002 (10/18/2001)
2002-P-0044   Missouri Department of Conservation, Fiscal Year Ended June 30, 2002 (10/31/2001)
2002-P-0048   Colorado Department of Natural Resources, Fiscal Year Ended June 30, 2002 (10/31/2001)
              *$42,149
2002-P-0052   Illinois Department of Natural Resources, Fiscal Year Ended June 30, 2002 (11/05/2001)
2002-P-0057   Oklahoma Department of Wildlife Conservation, Fiscal Year Ended June 30, 2002
              (11/07/2001)
2002-P-0058   New Hampshire Fish and Game Department, Fiscal Year Ended June 30, 2002 (11/07/2001)
2002-P-0062   American Fisheries Society, Fiscal Year Ended December 31, 2000 (11/13/2001)
2002-P-0063   American Fisheries Society, Fiscal Year Ended December 31, 2001 (11/13/2001)
2002-P-0090   South Dakota Department of Game, Fish and Parks-Wildlife, Fiscal Year Ended June 30, 2002
              (11/29/2001)
2002-P-0091   Kansas Department of Wildlife and Parks, Fiscal Year Ended June 30, 2002 (11/29/2001)
2002-P-0092   New Mexico Department of Game and Fish, Fiscal Year Ended June 30, 2002 (12/03/2001)
2002-P-0102   State of Wisconsin Department of Natural Resources, Fiscal Year Ended June 30, 2002
              (12/18/2001) *$29,632
2002-P-0106   South Carolina Department of Natural Resources, Fiscal Year Ended June 30, 2002
              (12/18/2001)
2002-P-0107   Minnesota Department of Natural Resources, Fiscal Year Ended June 30, 2002 (12/18/2001)
2002-P-0110   Mississippi Department of Environmental Quality, Fiscal Year Ended June 30, 2002
              (12/20/2001)
2002-P-0137   Massachusetts Department of Food and Agriculture, Fiscal Year Ended June 30, 2002
              (01/02/2002)
2002-P-0149   Ohio Department of Natural Resources, Fiscal Year Ended June 30, 2002 (01/03/2002)
2002-P-0215   Mississippi Department of Wildlife, Fisheries and Parks, Fiscal Year Ended June 30, 2001
              (01/24/2002)
2002-P-0331   Pennsylvania Fish and Boat Commission, Fiscal Year Ended June 30, 2003 (03/06/2002)
2002-P-0380   Indiana Department of Natural Resources, Fiscal Year Ended June 30, 2002 (03/02/2002)

Guam
2002-P-0184   University of Guam, Fiscal Year Ended September 30, 2002 (01/11/2002)
2002-P-0185   Guam Community College, Fiscal Year Ended September 30, 1998 (01/11/2002)
2002-P-0186   Guam Community College, Fiscal Year Ended September 30, 1999 (01/11/2002)
2002-P-0187   Guam Community College, Fiscal Year Ended September 30, 2000 (01/11/2002)
2002-P-0188   Guam Community College, Fiscal Year Ended September 30, 2001 (01/11/2002)
2002-P-0189   Guam Community College, Fiscal Year Ended September 30, 2002 (01/11/2002)

  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        46
                                                Return to
                                            Table of Contents
                                                                          Appendix 2 (continued)



Marshall Islands
2002-P-0076   Republic of the Marshall Islands, Fiscal Year Ended September 30, 1997 (11/19/2001)
2002-P-0077   Republic of the Marshall Islands, Fiscal Year Ended September 30, 1998 (11/20/2001)
2002-P-0271   Republic of the Marshall Islands, Fiscal Year Ended September 30, 1999 (02/19/2002)

Minerals Management Service
2002-P-0059   Colorado Department of Revenue, Fiscal Year Ended June 30, 2001 (11/07/2001)
2002-P-0060   Colorado Department of Revenue, Fiscal Year Ended June 30, 2002 (11/07/2001)

Multi-Office
2002-P-0108   Alaska Department of Natural Resources, Fiscal Year Ended June 30, 2002 (12/18/2001)
2002-P-0109   California Department of Fish and Game, Fiscal Year Ended June 30, 2002 (12/18/2001)
2002-P-0138   International Association of Fish and Wildlife Services, Fiscal Year Ended December 31, 1999
              (01/02/2002)
2002-P-0139   International Association of Fish and Wildlife Services, Fiscal Year Ended December 31, 2000
              (01/03/2002)
2002-P-0140   International Association of Fish and Wildlife Services, Fiscal Year Ended December 31, 2001
              (01/03/2002)
2002-P-0141   International Association of Fish and Wildlife Services, Fiscal Year Ended December 31, 2002
              (01/03/2002)
2002-P-0150   Idaho Department of Fish and Game, Fiscal Year Ended June 30, 2002 (01/04/2002)
2002-P-0151   Nevada Department of Conservation and Natural Resources, Division of Wildlife, Fiscal Year
              Ended June 30, 2000 (01/04/2002)
2002-P-0168   State of Washington Parks and Recreation Commission, Fiscal Year Ended June 30, 2000
              (01/08/2002)
2002-P-0169   State of Washington Parks and Recreation Commission, Fiscal Year Ended June 30, 2001
              (01/08/2002)
2002-P-0262   American Indian Law Center, Inc., Fiscal Year Ended June 30, 1998 (02/12/2002)
2002-P-0305   Anderson-Cottonwood Irrigation District, Fiscal Year Ended December 31, 2000 (02/27/2002)
2002-P-0306   Anderson-Cottonwood Irrigation District, Fiscal Year Ended December 31, 2001 (02/28/2002)
2002-P-0307   Anderson-Cottonwood Irrigation District, Fiscal Year Ended December 31, 2002 (02/27/2002)
2002-P-0334   The Peregrine Fund, Fiscal Year Ended September 30, 2001 (03/06/2002)
2002-P-0335   The Peregrine Fund, Fiscal Year Ended June 30, 2002 (03/06/2002)
2002-P-0339   Oregon Department of Fish and Wildlife, Fiscal Year Ended June 30, 2002 (03/07/2002)
2002-P-0341   Oregon Department of Fish and Wildlife, Fiscal Year Ended June 30, 2003 (03/07/2002)
2002-P-0356   Alaska Department of Fish and Game, Fiscal Year Ended June 30, 2002 (03/12/2002)
2002-P-0391   American Indian Law Center, Inc., Fiscal Year Ended June 30, 1999 (03/25/2002)
2002-P-0392   American Indian Law Center, Inc., Fiscal Year Ended June 30, 2000 (03/25/2002)
2002-P-0393   American Indian Law Center, Inc., Fiscal Year Ended June 30, 2001 (03/25/2002)
2002-P-0394   American Indian Law Center, Inc., Fiscal Year Ended June 30, 2002 (03/25/2002)




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        47
                                            Return to
                                        Table of Contents
                                                                          Appendix 2 (continued)




National Park Service
2002-P-0005   Education Management Corporation, Fiscal Year Ended December 31, 1999 (10/10/2001)
2002-P-0006   Education Management Corporation, Fiscal Year Ended December 31, 2001 (10/10/2001)
2002-P-0061   Pennsylvania Historical and Museum Commission Fiscal Year Ended June 30, 2002
              (11/07/2001)
2002-P-0078   State of South Carolina Department of Archives and History, Fiscal Year Ended June 30, 2002
              (11/20/2001)
2002-P-0095   Arkansas Department of Parks and Tourism, Fiscal Year Ended June 30, 2002 (12/12/2001)
2002-P-0096   Minnesota Historical Society, Fiscal Year Ended June 30, 2002 (12/17/2001)
2002-P-0111   Wisconsin Historical Society, Fiscal Year Ended June 30, 2002 (12/20/2001) *$47,356
2002-P-0142   South Carolina Department of Parks, Recreation and Tourism, Fiscal Year Ended
              June 30, 2002 (01/03/2002)
2002-P-0167   Massachusetts Historical Commission, Fiscal Year Ended June 30, 2002 (01/08/2002)
2002-P-0203   Mississippi Department of Archives and History, Fiscal Year Ended June 30, 2002
              (01/18/2002)
2002-P-0205   New Mexico Department of Energy, Minerals, and Natural Resources, Fiscal Year Ended
              June 30, 2002 (01/22/2002)
2002-P-0254   State of Missouri Department of Natural Resources, Fiscal Year Ended June 30, 2001
              (02/12/2002)
2002-P-0255   Missouri Department of Natural Resources, Fiscal Year Ended June 30, 2002 (02/12/2002)
2002-P-0300   Iowa Department of Natural Resources, Fiscal Year Ended September 30, 2002 (02/26/2002)
2002-P-0301   Iowa Department of Natural Resources, Fiscal Year Ended September 30, 2003 (02/26/2002)
2002-P-0320   Virginia Department of Historic Resources, Fiscal Year Ended June 30, 2001 (03/04/2002)
2002-P-0321   Virginia Department of Historic Resources, Fiscal Year Ended June 30, 2002 (03/04/2002)
2002-P-0322   Virginia Department of Historic Resources, Fiscal Year Ended June 30, 2003 (03/04/2002)
2002-P-0323   Virginia Department of Historic Resources, Fiscal Year Ended June 30, 2004 (03/04/2002)
2002-P-0381   Colorado Historical Society, Fiscal Year Ended June 30, 2002 (03/20/2002)
2002-P-1006   Ohio Historical Society, Fiscal Year Ended June 30, 2002 (10/01/2001)

Office of Surface Mining
2002-P-0152   Virginia Department of Conservation and Recreation, Fiscal Year Ended June 30, 2002
              (01/03/2002)
2002-P-0222   Railroad Commission of Texas, Fiscal Year Ended August 31, 2000 (01/28/2002)
2002-P-0327   North Dakota Public Service Commission, Fiscal Year Ended June 30, 2002 (03/06/2002)
2002-P-0328   North Dakota Public Service Commission, Fiscal Year Ended June 30, 2003 (03/06/2002)

Virgin Islands
2002-P-0388   Island Resources Foundation, Fiscal Year Ended June 30, 2003 (03/20/2002)




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        48
                                                 Return to
                                             Table of Contents
                                              Appendix 3



                           Monetary Impact of Audit Activities from
                           October 1, 2001, through March 31, 2002

                                                             FUNDS TO
                                                             BE PUT TO
                                     QUESTIONED               BETTER
ACTIVITY*                               COSTS                   USE
                                                              (*and**)         REVENUES        TOTAL

Bureau of Indian Affairs                    $4,559,929         $12,707,570               0    $17,267,499

Bureau of Reclamation                           15,582                    0              0         15,582

Fish and Wildlife Service                        33,174               71,781             0        104,955

Insular Areas: **

  - American Samoa                                      0                 0      7,148,769      7,148,769

 - U.S. Virgin Islands                       2,934,863          41,041,541       2,071,700     46,048,104

  - Guam                                     3,526,590          66,475,964       1,543,024     71,545,578

Multi-office                                            0            106,056             0        106,056

National Park Service                           779,274               47,356             0        826,630

Office of the Secretary                          30,031                   0              0         30,031

Office of the Special Trustee                    28,381                   0              0         28,381
 for American Indians

TOTAL                                     $11,907,824        $120,450,268      $10,763,493   $143,121,585

* Includes monetary impact of indirect cost proposals negotiated.
** Includes monetary impact of non-Federal funds (see Appendix 4).




   Semiann ual R
   Semiannual  Reepor
                  portt to the Cong
                               Congrr ess: October 1, 2001 - Mar
                                                             Marcch 31, 2002
                                         49
                                    Return to
                                Table of Contents
                                Appendix 4




            Non-Federal Funding Included in Monetary Impact
   of Audit Activities During the 6-Month Period Ended March 31, 2002


            No. 2002-I-0001 - "Virgin Islands Fire Service,
            Government of the Virgin Islands," dated October 30,
            2001. All of the $3,531,638 reported as monetary impact
            represents Insular Area funds.

            No. 2002-I-0003 - "Assessment and Collection of
            Taxes, American Samoa Government," dated
            November 15, 2001. All of the $7,148,769 reported as
            monetary impact represents Insular Area funds.

            No. 2002-I-0009 - "Virgin Islands Housing Finance
            Authority, Government of the Virgin Islands," dated
            December 31, 2001. All of the $37,416,316 reported as
            monetary impact represents Insular Area funds.

            No. 2002-I-0010 - "Administrative Functions, Virgin
            Islands Police Department, Government of the Virgin
            Islands," dated February 13, 2002. Of the $3,023,946
            reported as monetary impact, $242,325 represents
            Insular Area funds.

            No. 2002-I-0016 - "Bond Services, Lease Operations,
            Trust Fund Activities, Guam Economic Development
            Authority, Government of Guam," dated February 28,
            2002. All of the $68,018,988 reported as monetary
            impact represents Insular Area funds.




Semiann ual R
Semiannual  Reepor
               portt to the Cong
                            Congrr ess: October 1, 2001 - Mar
                                                          Marcch 31, 2002
                                      50
                                                        Return to
                                                    Table of Contents
                                                     Appendix 51

                                                           Table I

                         Inspector General Reports with Questioned Costs*
                                                No. of               Questioned                Unsupported
                                               Reports                 Costs                     Costs*
    A. For which no
    management decision had
    been made by the
    commencement of the
    reporting period                               80                 $56,349,037                    $338,221

    B. Which were issued
    during the reporting                           25                    9,004,228                     31,267
    period²
        Total (A+B)                               105                 $65,353,265                    $369,488
    C. For which a
    management decision was
    made during the
    reporting period                               21                   $2,289,186                            0

       (i) dollar value of
                                                   21                   $2,289,186                            0
    disallowed costs

       (ii) dollar value of
    costs allowed                                  0                              0                           0
    D. For which no
    management decision had
    been made by the end of
    the reporting period                           84                 $63,064,079                    $369,488

    E. For which no
    management decision was
    made within six months of
    issuance                                       81                 $56,345,216                    $338,221

    *Unsupported costs are included in questioned costs.




1
 The beginning balances for Appendix 5, Tables 1 through 3, are different from the ending balance in the previous
semiannual because the Office of Inspector General deleted Insular Area audit recommendations that are not subject
to a Department of the Interior management decision.
2
 Amount does not agree with Appendix 3 "Monetary Impact of Audit Activities" because we did not include the
monetary amount of Insular Area government recommendations that related to local government funds ($2,694,349)
or funds provided by other Federal agencies ($209,247). These amounts are not subject to a Department of the
Interior management decision.

    Semiann ual R
    Semiannual  Reepor
                   portt to the Cong
                                Congrr ess: October 1, 2001 - Mar
                                                              Marcch 31, 2002
                                          51
                                                     Return to
                                                 Table of Contents
                                                 Appendix 5

                                                 Table II

                    Inspector General Reports with Recommendations
                             that Funds Be Put to Better Use


                                                        No. of Reports                      Dollar Value*
  A. For which no management decision had
  been made by the commencement of the
  reporting period                                              11                           $28,839,829
  B. Which were issued during the reporting
  period¹                                                      114                             12,939,849**
      Total (A+B)                                              125                            $41,779,678
  C. For which a management decision was
  made during the reporting period                             114                           $12,939,849**
        (i) dollar value of recommendations
        that were agreed to by management                      114                           $12,939,849*
        (ii) dollar value of recommendations
        that were not agreed to by management                     0                                      0
  D. For which no management decision had
  beenmade by the end of the reporting period                   11                            $28,845,215
  E. For which no management decision was
  made within six months of issuance                            10                            $28,839,829


*Amounts include preaward aduits.
**Amounts include indirect cost proposals negotiated.




  ¹Amount does not agree with Appendix 3 "Monetary Impact of Audit Activities" because we did not include the
  monetary amount of insular area government recommendations that related to local government funds ($105,048,098)
  or funds provided by other Federal agencies ($2,462,321). These amounts are not subject to a Department of the
  Interior management decision.


Semiann ual R
Semiannual  Reepor
               portt to the Cong
                            Congrr ess: October 1, 2001 - Mar
                                                          Marcch 31, 2002
                                      52
                                                Return to
                                            Table of Contents
                                            Appendix 5


                                                Table III

                           Inspector General Reports With Lost or
                               Potential Additional Revenues

                                                                  No. of Reports            Dollar Value
 A. For which no management decision had been made
 by the commencement of the reporting period                               3                $49,760,830
 B. Which were issued during the reporting period¹                         0                            0
     Total (A+B)                                                           3                $49,760,830
 C. For which a management decision was made during
 the reporting period                                                      0                            0
    (i) dollar value of recommendations that were
       agreed to by management
                                                                           0                            0
    (ii) dollar value of recommendations that were not
       agreed to by management                                             0                            0
 D. For which no management decision had been made
 by the end of the reporting period                                        3                $49,760,830
 E. For which no management decision was made within
 six months of issuance                                                    3                $49,760,830




¹Amount does not agree with Appendix 3 "Monetary Impact of Audit Activities" because we did not include the
monetary amount of Insular Area government recommendations that related to local government funds
($10,691,793) or funds provided by other Federal agencies ($71,700). These amounts are not subject to a
Department of the Interior management decision.




Semiann ual R
Semiannual  Reepor
               portt to the Cong
                            Congrr ess: October 1, 2001 - Mar
                                                          Marcch 31, 2002
                                      53
                                                   Return to
                                               Table of Contents
                                                Appendix 6


                         Summary of Audit Reports Over 6 Months Old
                              Pending Management Decisions


This listing includes a summary of internal, contract (except preawards), grant and single audit reports that were over
six months old on March 31, 2002 and still pending a management decision. It provides report number, title, issue
date, number of unresolved recommendations, and unresolved amount of monetary benefits identified in the audit
report.


INTERNAL AUDITS
Bureau of Indian Affairs

1999-I-0937      Auditors Report on Bureau of Indian Affairs Consolidated Comparative Financial
                 Statements for Fiscal Years 1998 and 1997 (09/30/1999) 22 Recommendations Unresolved

Fish and Wildlife Service

2001-I-0410      Independent Auditors Report on the U.S. Fish And Wildlife Service Financial
                 Statements for Fiscal Year 2000 (06/22/2001) 2 Recommendations Unresolved

Insular Areas
Guam

2001-I-0417      Loan Programs, Guam Economic Development Authority, Government of Guam
                 (09/21/2001) 8 Recommendations and $10,452,864 Unresolved

Marshall Islands

1999-I-0952      Marshall Islands Development Bank, Republic of the Marshall Islands
                 (09/30/1999) 4 Recommendations and $382,888 Unresolved

Multi-Office

2001-I-0297      Audit Report on the Stripper Oil Well Property Royalty Rate Reduction Program
                 (03/30/2001) 2 Recommendations Unresolved




   Semiann ual R
   Semiannual  Reepor
                  portt to the Cong
                               Congrr ess: October 1, 2001 - Mar
                                                             Marcch 31, 2002
                                         54
                                                 Return to
                                             Table of Contents
Appendix 6 (continued)




Office of the Secretary

2000-I-0586   Independent Auditors Report on Departmental Offices Financial Statements for Fiscal
              Year 1999 (07/14/2000) 1 Recommendation Unresolved

CONTRACT AND GRANT AUDITS
Bureau of Indian Affairs

1994-E-0784   Costs Claimed by Diversified Business Technologies Corporation Under Contract No.
              CBM000047 (06/10/1994) $825,170 Unresolved (Circumstances beyond the Bureau’s
              control have delayed resolution of the costs.)
1994-E-0919   Costs Claimed by Diversified Business Technologies Corporation Under Contract No.
              CBM000147 (06/30/1994) $247,414 Unresolved (Circumstances beyond the Bureau’s
              control have delayed resolution of the costs.)

Bureau of Reclamation

2000-E-0688   Interstate Electrical Contractor, Claims for Equitable Adjustment Submitted to Bureau
              of Reclamation Under Contract No. 1425-5-CC-40-17910 (09/18/2000) $982,917
              Unresolved
2001-E-0184   Mingus Constructors, Inc., Claim for Equitable Adjustment Submitted to Bureau of
              Reclamation Under Contract No. 1425-5-CC-40-17910 (02/14/2001) $725,790
              Unresolved
2001-E-0229   Costs Claimed by Sloat and Associates, Inc., Under Bureau of Reclamation Contract
              No. 1425-5-CC-40-18140 (02/14/2001) $157,964 Unresolved

Fish and Wildlife Service

1998-E-0198   U.S. Fish and Wildlife Service Federal Aid Grants to the State of Colorado for Fiscal Years
              1994 and 1995 (01/16/1998) $1,457,264 Unresolved

Geological Survey

1993-E-0339   TGS Technology, Inc., Closing Statement (12/22/1992) $786,501 Unresolved




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        55
                                            Return to
                                        Table of Contents
                                                                          Appendix 6 (continued)




INSULAR AREAS
Marshall Islands

1995-E-0951   Grant and Trust Funds Provided for the Rongelap Resettlement Project, Republic of the
              Marshall Islands (05/22/1995) $246,191 Unresolved

Minerals Management Service

2001-E-0355   Ute Indian Tribe, Costs Billed Under Minerals Management Service Cooperative
              Agreement No. 15-35-0002-40270 from October 1, 1994 through September 30,
              2000(05/04/2001) $132,217 Unresolved

National Park Service

2000-E-0289   JCM Control Systems, Incorporated, Costs Billed from January 1, 1997 through July
              16,1999 Under National Park Service Contract No. 1443CX300094906 (03/24/2000)
              $83,125 Unresolved
2000-E-0607   Harrison and Palmer, Incorporated, Costs Billed Under National Park Service
              Contract No. 1443CX300094906 (08/08/2000) $52,703 Unresolved
2000-E-0706   Southern Insulation, Incorporated, Costs Billed Under National Park Service Contract
              No. 1443CX300094906 from November 1, 1996 through June 1, 1999 (09/29/2000)
              $86,262 Unresolved
2001-E-0035   Callas Contractors, Incorporated, Costs Billed Under National Park Service Contract
              No. 1443CX300094906 from January 1, 1997 through June 1, 1997 (11/07/2000)
              $16,425 Unresolved
2001-E-0036   Capitol Mechanical Construction, Costs Billed Under National Park Service Contract
              No. 1443CX3000094906 from January 1, 1997 through June 1, 1999 (11/07/2000)
              $98,194 Unresolved
2001-E-0244   E.M.S. Consultants, Incorporated, Costs Billed Under National Park Service Contract
              No. 1443CX3000094906 from May 1, 1996 Through June 1, 1999 (02/27/2001)
               $327,330 Unresolved
2001-E-0336   JCM Control Systems, Incorporation, Costs Billed Under National Park Service
              Contract No. 1444CX300094906 from January 1, 1994 through July 16, 1999 (04/23/2001)
              $109,865 Unresolved

SINGLE AUDITS
Bureau of Indian Affairs

1996-A-1122   Northwestern Band of the Shoshoni Nation, Fiscal Year December 30, 1994
              (08/15/1996) 1 Recommendation and $8,940 Unresolved (Circumstances beyond the
              Bureau’s control have delayed resolution of the costs.)

  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        56
                                               Return to
                                           Table of Contents
Appendix 6 (continued)


2001-A-0424   Eastern Band of Cherokee Indians, Fiscal Year Ended September 30, 1999
              (07/03/2001) 1 Recommendation Unresolved
2001-A-0454   Pokagon Band of Potawatomi Indians, Fiscal Year Ended September 30, 1998
              (07/31/2001) 1 Recommendation Unresolved
2001-A-0455   Tuba City High School Board, Inc., Fiscal Year Ended June 30, 1998 (07/31/2001)
              1 Recommendation Unresolved
2001-A-0464   Wingate High School Board of Education, Inc., Fiscal Year Ended June 30, 1997
              (08/17/2001) 1 Recommendation Unresolved
2001-A-0465   Wingate High School Board of Education, Inc., Fiscal Year Ended June 30, 1999
              (08/17/2001) 1 Recommendation Unresolved
2001-A-0473   Lovelock Paiute Tribes for the Fiscal Year Ended December 31, 1998
              (09/27/2001) 5 Recommendations and $52,000 Unresolved
2001-A-0494   United Sioux Tribes of South Dakota Development Corporation, Fiscal Year Ended
              September 30, 1999 (09/10/2001) 1 Recommendation Unresolved
2001-A-0509   Picayune Rancheria of the Chukchansi Indian Tribe, Fiscal Year Ended
              December 31, 1998 (09/19/2001) 8 Recommendations Unresolved
2001-A-0520   Round Valley Indian Tribe, Fiscal Year Ended December 31, 1999
              (09/24/2001) 4 Recommendations and $59,199 Unresolved

Bureau of Reclamation

2001-A-0359   Reclamation District #1004, Fiscal Year Ended December 31, 1999 (05/10/2001)
              1 Recommendation Unresolved
2001-A-0449   Tehema-Colusa Canal Authority, Fiscal Year Ended September 30, 1999 (07/31/2001)
              1 Recommendation Unresolved

Fish and Wildlife Service

1997-A-0993   Commonwealth of Virginia, Fiscal Year Ended June 30, 1995 (08/08/1997) 1 Recommendation
              Unresolved
1997-A-1180   Wisconsin, Fiscal Year Ended June 30, 1995 (09/05/1997) 1 Recommendation and $26,410
              Unresolved
1997-A-1241   South Carolina, Fiscal Year Ended June 30, 1996 (09/17/1997) 1 Recommendation Unresolved
1998-A-0149   Arizona, Fiscal Year Ended June 30, 1996 (12/02/1997) 1 Recommendation Unresolved
2001-A-0195   State of Utah, Fiscal Year Ended June 30, 1999 (01/29/2001) 1 Recommendation and $30,183
              Unresolved
2001-A-0196   State of Georgia, Fiscal Year Ended June 30, 1999 (01/29/2001) 1 Recommendation
              Unresolved
2001-A-0202   State of California, Fiscal Year Ended June 30, 1999 (01/29/2001) 1 Recommendation
              Unresolved
2001-A-0242   New Hampshire, Fiscal Year Ended June 30, 1998 (02/23/2001) 1 Recommendation
              Unresolved
2001-A-0460   State of Montana, Fiscal Year Ended June 30, 1999 (07/31/2001) 5 Recommendations
              Unresolved



  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        57
                                            Return to
                                        Table of Contents
                                                                          Appendix 6 (continued)




National Park Service

1998-A-0194   Georgia Trust for Historic Preservation, Inc., Fiscal Year Ended March 31, 1997 (12/24/1997)
              1 Recommendation Unresolved
1998-A-0229   National Institute for the Conservation of Cultural Property, Inc., Fiscal Year
              Ended December 31, 1996 (01/15/1998) 1 Recommendation Unresolved
1998-A-0627   South Carolina Department of Parks, Recreation and Tourism, Fiscal Year Ended
              June 30, 1996 (08/06/1998) 1 Recommendation Unresolved
1998-A-0687   National Conference of State Historic Preservation Officers, Fiscal Year Ended
              December 31, 1997 (09/25/1998) 1 Recommendation Unresolved
2000-A-0158   Georgia Trust for Historic Preservation, Inc., Fiscal Year Ended March 31, 1998 (12/17/1999)
              1 Recommendation Unresolved
2000-A-0160   Ste. Genevieve, Missouri, Fiscal Year Ended September 30, 1998 (12/17/1999)
              1 Recommendation Unresolved
2000-A-0186   Allegheny Ridge Corporation, Fiscal Year Ended June 30, 1997 (01/13/2000)
              1 Recommendation Unresolved
2001-A-0089   Georgia Trust for Historic Preservation, Fiscal Year Ended March 31, 1999
              (12/14/2000) 1 Recommendation Unresolved
2001-A-0251   Decatur, Alabama, Fiscal Year Ended September 30, 1997 (03/01/2001)
              1 Recommendation Unresolved
2001-I-0305   Independent Auditors Report on National Park Service Financial Statements For Fiscal
              Year 2000 (03/30/2001) 1 Recommendation Unresolved

Office of Surface Mining

2000-A-0087   Sheridan, Wyoming, Fiscal Year Ended June 30, 1998 (11/05/1999) 1 Recommendation
              Unresolved

Office of the Secretary

2000-A-0062   Hawaii, Fiscal Year Ended June 30, 1998 (11/04/1999) 1 Recommendation and
              $32,167 Unresolved
2000-A-0099   Pennsylvania State University, Fiscal Year Ended June 30, 1998 (11/19/1999)
              1 Recommendation and $2,303 Unresolved
2001-A-0450   Connecticut College, New London, Connecticut, Fiscal Year Ended June 30, 1999
              (07/31/2001) 1 Recommendation and $3,234 Unresolved




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        58
                                                  Return to
                                              Table of Contents
                                               Appendix 7


                    Summary of Internal Audit Reports Over Six Months
                             Old Pending Corrective Action

This is a listing of internal audit reports with management decisions over 6 months old for which corrective action
has not been completed. It provides report number, title issue date, and the number of recommendations without final
corrective action. These reports continue to be monitored by the Focus Leader for Management Control and Audit
Followup, Assistant Secretary for Policy, Management and Budget, for completion of corrective action. Note: The
Insular Area reports listed pertain to corrective actions that affect the Department of the Interior funds.


Bureau of Indian Affairs

1995-I-0598      Bureau of Indian Affairs Principal Statements for Fiscal Years 1993 and 1994
                 (02/28/1995) 2 Recommendations
1995-I-1402      Wapato Irrigation Project, Bureau of Indian Affairs (09/30/1995) 2 Recommendations
1997-I-0834      Bureau of Indian Affairs Consolidated Financial Statements for Fiscal Years 1995 and
                 1996 (05/09/1997) 1 Recommendation
1997-I-0771      General Controls Over Automated Information Systems, Operations Service Center,
                 Bureau of Indian Affairs (04/30/1997) 4 Recommendations
1998-I-0483      Follow-up of General Controls Over Automated Information Systems, Operations
                 Service Center, Bureau of Indian Affairs (06/10/1998) 4 Recommendations
1998-I-703       Agricultural Leasing and Grazing Activities, Fort Peck Agency, Bureau of Indian
                 Affairs (09/30/98) 2 Recommendations
1999-I-0937      Auditors Report on Bureau of Indian Affairs Consolidated Comparative Financial
                 Statements for Fiscal Years 1998 and 1997 (09/30/1999) 1 Recommendation
2000-I-0597      Independent Auditors Report on Bureau of Indian Affairs Consolidated Financial
                 Statement for Fiscal Year 1999 (07/28/2000) 7 Recommendations
2001-I-0237      Construction of Costs of Chief Leschi School, Constructed by the Puyallup Tribe Under
                 Bureau of Indian Affairs Replacement School Construction (03/05/2001)
                 1 Recommendation
2001-I-0412      Audit of Bonding for Oil and Gas Wells on Indian Trust Lands (09/21/01)
                 1 Recommendation

Bureau of Land Management

1992-I-0828      Onshore Geophysical Exploration Program (05/26/1992) 2 Recommendations
1995-I-0379      Follow-up of Recommendations Relating to Bureau of Land Management User Charges
                 for Mineral-Related Document Processing (01/23/1995) 2 Recommendations
1995-I-0747      Right-of-Way Grants, Bureau of Land Management (03/31/1995) 5 Recommendations
1997-I-1104      Management of Herd Levels, Wild Horse and Burro Program, Bureau of Land
                 Management (08/12/1997) 1 Recommendation
1997-I-1300      Issuance of Mineral Patents, Bureau of Land Management and Office of the Solicitor
                 (09/30/1997) 1 Recommendation
1998-I-0419      The Adopt-A-Horse Program, Bureau of Land Management (04/30/1998)
                 1 Recommendation

   Semiann ual R
   Semiannual  Reepor
                  portt to the Cong
                               Congrr ess: October 1, 2001 - Mar
                                                             Marcch 31, 2002
                                         59
                                           Return to
                                       Table of Contents
Appendix 7 (continued)




1999-I-0677   Rangelands Improvement Program, Bureau of Land Management (7/28/1999)
              1 Recommendation
1999-I-0808   Cultural Resource Management, Bureau of Land Management (09/03/1999)
              2 Recommendations
2000-I-0448   Bureau of Land Management Financial Statements for Fiscal Years 1998 and 1999
              (05/18/2000) 2 Recommendations
2001-I-0274   Independent Auditors Report on Bureau of Land Management Financial Statements for
              Fiscal Year 2000 (03/08/2001) 2 Recommendations

Bureau of Reclamation

1994-I-0930   Irrigation of Ineligible Lands (07/11/1994) 3 Recommendations
1998-I-0250   Follow-up of Recovery of Irrigation Investment Costs, Bureau of Reclamation
              (02/13 1998) 3 Recommendations
1998-I-0383   Central Valley Project Restoration Fund, Bureau of Reclamation (03/31/1998)
               1 Recommendation
1998-I-0623   Follow-up of Mainframe Computer Policies and Procedures, Administrative Service
              Center, Bureau of Reclamation (08/20/1998) 5 Recommendations
1999-I-0588   Lower Brule Sioux Rural Water System, MNI Wiconi Rural Water Supply Project,
              Bureau of Reclamation (06/24/1999) 1 Recommendation
1999-I-0627   Oglala Sioux Rural Water Supply System, MNI Wiconi Rural Water Supply Project,
              Bureau of Reclamations (06/29/1999) 4 Recommendations
2000-I-0376   Concessions Managed by the Bureau of Reclamations (05/08/2000)
              3 Recommendations
2001-I-0408   Independent Auditors Report on Bureau of Reclamation’s Financial Statements for
              Fiscal Year 2000 (06/08/2001) 2 Recommendations

Fish and Wildlife Service

1995-I-0376   Concession Fees, U.S. Fish and Wildlife Service (01/17/1995) 1 Recommendation
1997-I-1302   Partners for Wildlife Habitat Restoration Program, U.S. Fish and Wildlife
              Service (09/29/1997) 3 Recommendations
1997-I-1305   Automated Law Enforcement System, U.S. Fish and Wildlife Service (09/30/1997)
              2 Recommendations
1999-I-0162   Land Acquisition Activities, U.S. Fish and Wildlife Service (12/29/1998)
              1 Recommendation
2000-I-0050   Miscellaneous Receipts, U.S. Fish and Wildlife Service (11/09/1999)
              6 Recommendations
2000-I-0226   Deferred Maintenance, U.S. Fish and Wildlife Service (03/10/2000) 3 Recommendations
2000-I-0709   Monetary Incentive Awards, Federal Aid Program, U.S. Fish and Wildlife Service
              (09/29/2000) 1 Recommendation
2001-I-0410   Independent Auditors Report on the U.S. Fish and Wildlife Service’s Financial
              Statements for Fiscal Year 2000 (06/24/2001) 3 Recommendations


  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        60
                                                Return to
                                            Table of Contents
                                                                          Appendix 7 (continued)




INSULAR AREAS
Guam
1999-I-0417    Loan Programs, Guam Economic Development Authority, Government of Guam
               (09/21/2001) 2 Recommendations

Republic of the Marshall Islands
1999-I-0952    Marshall Islands Development Bank, Republic of the Marshall Islands (09/30/1999)
               3 Recommendations

Minerals Management Service
1997-I-1042    Royalty Management Programs’ Automated Information Systems, Minerals
               Management Service (07/31/1997) 1 Recommendation
2000-I-0279    Small Refiners Program, Minerals Management Service (03/27/2000) 1 Recommendation
2000-I-0647    General and Application Controls Over the Technical Information Management System,
               Offshore Minerals Management, Minerals Management Service (08/31/2000)
               7 Recommendations

Multi-office
2000-I-0300    Supporting Documentation for Operations Participating in the Stripper Oil Well
               Property Royalty Rate Reduction Program, Bureau of Land Management and Minerals
               Management Service (03/27/2000) 2 Recommendations
2001-I-0421    Selected Activities on Bonding for Oil and Gas Leases on Indian Trust Lands
               (09/24/2001) 1 Recommendation

National Park Service

1997-I-0908    Automated Law Enforcement System, National Park Service (06/23/1997)
               1 Recommendation
1998-I-0406    Followup of Recommendations Concerning Utility Rates Imposed by the National Park
               Service (04/15/1998) 5 Recommendations
1999-I-0518    Land Acquisition Activities, National Park Service (05/28/1999) 2 Recommendations
1999-I-0959    Deferred Maintenance, National Park Service (09/30/1999) 1 Recommendation




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        61
                                            Return to
                                        Table of Contents
Appendix 7 (continued)




2000-I-0621   Independent Auditors Report of National Park Service Financial Statements for Fiscal
              Year 1999 (08/08/2000) 2 Recommendations
2001-I-0116   Collection and Use of Concession Fees (01/11/2001) 1 Recommendation
2001-I-0305   Independent Auditors Report on National Park Service Financial Statements for Fiscal
              Year 2000 (03/30/2001) 28 Recommendations

Office of Surface Mining Reclamation and Enforcement

2001-I-0415   Improvements Made in General Controls over Automated Information Systems
              (09/21/2001) 1 Recommendation

Office of the Secretary

1998-I-0712   Receipts and Expenditures of Funds by the Utah Reclamation Mitigation and
              Conservation Commission for Fiscal Years 1996 and 1997 (09/30/1998) 3 Recommendations
1999-I-0381   Additional Controls Needed Over the Data Processing Environment at the U.S.
              Geological Survey Reston Enterprise Data Services Center (03/24/1999) 1 Recommendation
2001-I-0407   Independent Auditors Report on Departmental Offices Financial Statements for Fiscal
              Year 2000 (05/31/2001) 3 Recommendations

Office of the Special Trustee for American Indians

1997-I-1167   Judgment of Funds Awarded to the Turtle Mountain Band of Chippewa Indians
              (09/22/97) 1 Recommendation
1997-I-1168   Judgment of Funds Awarded to the Navajo Nation (09/22/1997) 1 Recommendation
1997-I-1169   Judgment Funds Awarded to the Papago Tribe of Arizona (09/15/97) 2 Recommendations
2000-I-0434   Independent Auditors Report on the Financial Statement for Fiscal Years 1998 and
              1999 for the Office of the Special Trustee for American Indians Tribal and other
              Special Trust Funds and Individual Indian Monies Trust Funds Managed by the Office
              of Trust Funds Management (05/11/2000) 1 Recommendation




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        62
                                                   Return to
                                               Table of Contents
                                                Appendix 8
                              Summary Of Insular Area Reports
                                With Open Recommendations
                                    Over 6 Months Old
Note: These Insular Area reports contain recommendations made specifically to Insular Area governors and other
insular area officials who do not report to the Secretary and are not subject to the policy, guidance, and administrative
oversight established by the Assistant Secretary for Policy, Management and Budget.


INTERNAL AUDITS
American Samoa
1996-I-0533                American Samoa Legislature (03/22/1996) 7 Unimplemented Recommendations

2002-I-0003                Assessment and Collection of Taxes (11/15/2001) 2 Unimplemented and 11
                           Unresolved Recommendations

Commonwealth of the Northern Mariana Islands
G-IN-NMI-10-86             Unliquidated Obligations (07/31/1987) 4 Unimplemented Recommendations
1988-I-0078                Review of the Mariana Islands Housing Authority’s Contract with OCK Construction
                           Unlimited (05/09/1988) 6 Unimplemented Recommendations
1988-I-0079                Mariana Islands Housing Authority’s Contract Administration Procedures (05/10/1988)
                           3 Unimplemented Recommendations
1994-I-0936                Followup of Recommendations Concerning the Economic Development Loan Fund,
                           Commonwealth Development Authority (07/18/1994) 2 Unresolved Recommendations
1994-I-1323                Utilities Rate Structure, Commonwealth Utilities Corporation (09/24/1994) 3
                           Unimplemented Recommendations
1995-I-0106                Contracting and Contract Administration, Commonwealth Utilities Corporation
                           (11/14/1994) 5 Unimplemented Recommendations
1996-I-0596                Management of Public Land (03/20/1996) 6 Unresolved and 1 Unimplemented
                           Recommendation
1999-I-0147                Management of Federal Grants, Public School System (12/15/1998) 3 Unimplemented
                           and 1 Unresolved Recommendations
1999-I-0356                Discretionary and Reprogrammed Funds, Office of the Governor (03/26/1999)
                           2 Unimplemented Recommendations

Federal States of Micronesia
Truk
G-IN-FSM-018-85            Administrative Controls of Funds, Truk State (06/23/1986) 2 Unimplemented
                           Recommendations

Yap
G-IN-FSM-020-85            YAP’s State’s Unliquidated Obligations (03/27/1986) 1 Unimplemented
                           Recommendation

   Semiann ual R
   Semiannual  Reepor
                  portt to the Cong
                               Congrr ess: October 1, 2001 - Mar
                                                             Marcch 31, 2002
                                         63
                                       Return to
                                   Table of Contents
                                                                    Appendix 8 (continued)



Guam
G-IN-GUA-16-83    Island Wide Paving (02/21/1984) 7 Unimplemented Recommendations
G-IN-GUA-20-84    Review of the Government of Guam’s Growing Deficit (10/21/1986) 4
                  Unimplemented Recommendations
G-IN-GUA-13-85    Billing/Collecting Procedures, Public Utility Agency (09/14/1987) 4 Unimplemented
                  Recommendations
G-IN-GUA-06-86B   Travel Practices, Guam Power Authority (07/31/1987) 7 Unimplemented
                  Recommendations
G-IN-GUA-19-86B   Procurement Activities, Guam Power Authority (09/23/1987) 6 Unimplemented
                  Recommendations
G-IN-GUA-06-87A   Agana Fractional Lot Program (07/31/1987) 3 Unimplemented Recommendations
1988-I-0015       Procurement and Property Management – Guam Housing and Urban Renewal
                  Authority (11/24/1987) 2 Unimplemented Recommendations
1989-I-0001       Proposed Rebate of Income Taxes on Guam Land Claims Settle (10/04/1988)
                  1 Unimplemented Recommendation
1989-I-0064       Property Management, Department of Education (04/10/1989) 11 Unimplemented
                  Recommendations
1989-I-0068       Procurement Practices, Department of Education (04/28/1989) 3 Unimplemented
                  Recommendations
1989-I-0071       Vehicle Registration Operations, Motor Vehicle Division (05/08/1989)
                  7 Unimplemented Recommendations
1991-I-0162       Followup Review, Administration of Qualifying Certificate Program, Guam Economic
                  Development Authority (11/15/1990) 2 Unimplemented Recommendations
1992-I-1360       Review of the Government of Guam Retirement Fund (09/28/1992)
                  7 Unimplemented Recommendations
1998-I-0264       Legislature Capital Improvement Fund, Guam Legislature (02/20/1998)
                  4 Unresolved Recommendations
1998-I-0335       Programs and Operations, Department of Vocational Rehabilitation (03/16/1998) 3
                  Unimplemented Recommendations
1998-I-0570       Assessment and Collection of Gross Receipts Taxes, Department of Revenue and
                  Taxation (07/17/1998), 4 Unimplemented Recommendations
1998-I-0643       Operational Funding Status, Department of Education (08/28/1998)
                  2 Unimplemented Recommendations
1999-I-0013       On-Call Substitute Teachers, Department of Education (10/21/1998) 1 Unresolved
                  Recommendation
1999-I-0255       Federal Grant Program Travel Activities, Department of Education (02/25/1999)
                  7 Unresolved Recommendations
1999-I-0455       Extended Day Program, Department of Education (05/11/1999)
                  8 Unresolved and 4 Unimplemented Recommendations
2001-I-0419       Qualifying Certificate Program, Guam Economic Development Authority (09/30/2001)
                   6 Unresolved and 8 Unimplemented Recommendations

Republic of the Marshall Islands
1994-I-0021       Capitol Relocation Project (10/18/1993) 2 Unresolved and 2 Unimplemented
                  Recommendations

  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        64
                                             Return to
                                         Table of Contents
Appendix 8 (continued)


Republic of Palau
1989-I-0095         Power Plant and Fuel Storage Facility (07/31/1989) 6 Unimplemented
                    Recommendations

U.S. Virgin Islands
V-IN-VIS-021-84     Dome Insurance Company, Inc. (04/27/1984) 4 Unimplemented Recommendations
V-IN-VIS-024-84     Audit of the Employees’ Retirement System (09/04/1985)
                    24 Unimplemented Recommendations
V-IN-VIS-012-85     Hotel Occupancy Tax (12/18/1985) 10 Unimplemented Recommendations
V-IN-VIS-014-85     Department of Education Procurement and Property Activities (01/08/1986)
                    22 Unimplemented Recommendations
V-IN-VIS-023-85     Audit of the Road Fund (02/18/1986) 5 Unimplemented Recommendations
V-IN-VIS-021-86     Review of Proposed Highway Construction (Memo) (09/23/1986)
                    1 Unimplemented Recommendation
V-IN-VIS-013-85     Audit of Real Property Management (10/23/1986)
                    19 Unimplemented Recommendations
V-IN-VIS-013-86     Excise Taxes (03/04/1987) 13 Unimplemented Recommendations
V-IN-VIS-019-86     Unliquidated Obligations (03/18/1987) 2 Unimplemented Recommendations
V-IN-VIS-010-86     Acquisition, Use and Control of Computers (03/27/1987) 7 Unimplemented
                    Recommendations
V-IN-VIS-014-86     Port Authority Procurement Procedures (07/01/1987) 8 Unimplemented
                    Recommendations
V-IN-VIS-018-86     Public Bus Transportation (09/09/1987) 9 Unimplemented Recommendations
V-IN-VIS-007-87     Water and Power Authority (09/09/1987) 15 Unimplemented Recommendations
1988-I-0046         Administration, Enforcement, and Collection of Income Taxes (02/25/1989) 17
                    Unimplemented Recommendations
1989-I-0054         Watch Quota Verification (03/16/1989) 1 Unimplemented Recommendation
1989-I-0073         Small Business Development Loan (05/22/1989) 8 Unimplemented Recommendations
1989-I-0078         Child Support Enforcement Program, Division of Paternity and Child Support,
                    Department of Justice (06/07/1989) 2 Unimplemented Recommendations
1991-I-0467         Follow-up of Recommendations Contained in the Report on the Road Fund
                    (02/19/1991), 1 Unresolved Recommendation
1992-I-0090         Prison Overcrowding, Bureau of Corrections (10/28/1991) 5 Unimplemented
                    Recommendations
1993-I-0363         Inmate Care, Rehabilitation, and Safety, Bureau of Corrections (12/31/1992) 10
                    Unresolved Recommendations
1993-I-0572         Supply and Equipment Management, Department of Education (02/19/1993) 9
                    Unresolved Recommendations
1993-I-0670         Personnel, Property Management, and Procurement Practices, Bureau of Corrections
                    (03/11/1993), 14 Unresolved Recommendations
1993-I-1382         Implementation of the Financial Management System (08/06/1993) 1 Unimplemented
                    Recommendation
1993-I-1640         The Insurance Guaranty Fund and the Hurricane Hugo Claims Fund (09/30/1993) 2
                    Unimplemented Recommendations
1994-I-1194         Construction Contracting, Capital Improvement (09/09/1994) 2 Unimplemented
                    Recommendations

  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        65
                                       Return to
                                   Table of Contents
                                                                      Appendix 8 (continued)


1997-I-0040      Division of Agriculture, Department of Economic Development and Agriculture (10/
                 21/1996),8 Unresolved Recommendations
1997-I-0243      Workmen’s Compensation Program (12/30/1996) 15 Unresolved Recommendations
1998-I-0188      Internal Revenue Taxes, Bureau of Internal Revenue (12/30/1997) 7 Unimplemented
                 and 1 Unresolved Recommendations
1998-I-0191      Building Permit Fees, Department of Planning and Natural Resources (12/30/1997)
                 7 Unimplemented Recommendations
1998-I-0263      Sewage System User Fees (02/20/1998) 5 Unresolved Recommendations
1998-I-0384      Hurricane-Related Contracting, Department of Education (03/31/1998) 4 Unresolved
                 and 3 Unimplemented Recommendations
1998-I-0468      Follow-up of Recommendations Relating to the Bureau of Corrections, Department of
                 Justice (05/29/1998) 6 Unresolved Recommendations
1998-I-0670      Interfund Loans and Federal Grant Balances (09/09/1998) 14 Unresolved
                 Recommendations
1999-I-0365      Follow-up of Recommendations Relating to Personnel Management Practices, Division
                 of Personnel (03/26/1999) 3 Unresolved and 1 Unimplemented Recommendation
2001-I-0107      Administrative Functions, Legislature of the Virgin Islands (12/29/2000) 8 Unresolved
                 Recommendations
2001-I-0291      Administration and Collection of Excise Taxes, Bureau of Internal Revenue (03/30/
                 2001),8 Unimplemented Recommendations
2001-I-0303      Billing and Collection Functions, Virgin Islands Port Authority (03/30/2001) 9
                 Unresolved and 1 Unimplemented Recommendations
2001-I-0290      Virgin Islands Lottery (05/11/2001) 13 Unimplemented Recommendations
2002-I-0001      Virgin Islands Fire Service (10/30/2001) 5 Unimplemented Recommendations
2002-I-0002      Job Training Partnership Act Programs, Department of Labor (10/30/2001)
                 9 Unimplemented Recommendations
2002-I-0009      Virgin Islands Housing Finance Authority, (12/21/2001) 2 Unimplemented and 2
                 Unresolved Recommendations

SINGLE AUDITS
American Samoa
2001-A-0245      American Samoa Government, Fiscal Year Ended September 30,1995 (02/28/2001) 23
                 Recommendations and $2,241,683 Unresolved
2001-A-0427      American Samoa Government, Fiscal Year Ended September 30,1996
                 (07/06/2001) 1 Recommendation and $426,541 Unresolved

Commonwealth of the Northern Mariana Islands
1991-A-0731      Commonwealth Utilities Corporation, Fiscal Year Ended September 30, 1988
                 (04/26/1991) 1 Recommendation and $6,087,882 Unresolved
1991-A-0803      Mariana Islands Housing Authority, Fiscal Year Ended September 30, 1986
                 (05/07/1991) 1 Recommendation and $1,537,321 Unresolved
1991-A-0823      Mariana Islands Housing Authority, Fiscal Year Ended September 30, 1987
                 (05/10/1991) 1 Recommendation and $455,857 Unresolved
1991-A-0824      Mariana Islands Housing Authority, Fiscal Year Ended September 30, 1988
                 (05/10/1991) 1 Recommendation and $196,593 Unresolved


  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        66
                                          Return to
                                      Table of Contents
Appendix 8 (continued)




1992-A-1179      Mariana Islands Housing Authority, Fiscal Year Ended September 30, 1989,
                 (08/13/92) 1 Recommendation and $168,711 Unresolved
1993-A-0110       Mariana Islands Housing Authority, Fiscal Year Ended September 30, 1990
                 (10/26/1992) 1 Recommendation and $124,450 Unresolved
1993-A-0225      Mariana Islands Housing Authority, Fiscal Year Ended September 30, 1991
                 (11/19/1992) 1 Recommendation and $1,119,377 Unresolved
1993-A-1563      Commonwealth Development Authority, Fiscal Year Ended September 30, 1988
                 (09/13/1993) 1 Recommendation and $4,998,398 Unresolved
1994-A-0525      Commonwealth Development Authority, Fiscal Year Ended September 30, 1989
                 (04/15/1994) 1 Recommendation and $6,078,308 Unresolved
1994-A-0574      Commonwealth Utilities Corporation, Fiscal Year Ended September 30, 1990
                 (05/06/1994) 1 Recommendation and $166,509 Unresolved
1994-A-0818      Commonwealth Utilities Corporation, Fiscal Year Ended September 30, 1991
                 (06/16/1994) 1 Recommendation Unresolved
1994-A-0836      Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30,
                 1993 (06/20/1994) 1 Recommendation Unresolved
1994-A-1083      Mariana Islands Housing Authority, Fiscal Year Ended September 30, 1993
                 (08/03/1994) 1 Recommendation Unresolved
1995-A-0784      Commonwealth Ports Authority, Fiscal Year Ended September 30, 1994
                 (04/12/1995) 1 Recommendation Unresolved
1997-A-0851      Northern Marianas College, Fiscal Year Ended September 30, 1993
                 (05/16/1997) 1 Recommendation Unresolved
1998-A-0339      Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30,
                 1996 (03/11/1998) 47 Recommendations and $11,176,309 Unresolved
1999-A-0355      Commonwealth of the Northern Mariana Islands Public School System, Fiscal Year
                 Ended September 30, 1995 (03/12/1999) 1 Recommendation Unresolved
2000-A-0487      Karidat, Fiscal Year Ended September 30, 1994 (06/06/2000)
                 10 Recommendations Unresolved
2001-A-0210      Karidat, Fiscal Year Ended September 30, 1996 (02/02/2001)
                 1 Recommendation Unresolved
2001-A-0212      Karidat, Fiscal Year Ended September 30, 1997 (02/07/2001)
                 1 Recommendation Unresolved
2001-A-0213      Karidat, Fiscal Year Ended September 30, 1998 (02/07/2001)
                 1 Recommendation Unresolved
2001-A-0269      Commonwealth of The Northern Mariana Islands, Fiscal Year Ended September 30,
                 1999 (03/08/2001) 43 Recommendations and $146,174 Unresolved
2001-A-0341      Commonwealth Development Authority, Fiscal Year Ended September 30, 1999
                 (04/30/2001) 12 Recommendations Unresolved
2001-A-0408      Commonwealth Development Authority, Fiscal Year Ended September 30, 2000
                 (06/18/2001) 8 Recommendations Unresolved

Federated State of Micronesia
1996-A-0482      Federated States of Micronesia, National Government, Fiscal Year Ended
                 September 30, 1994 (02/29/1996) 19 Recommendations and $57,900 Unresolved



  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        67
                                      Return to
                                  Table of Contents
                                                                    Appendix 8 (continued)



1997-A-0244     Federated States of Micronesia, National Government, Fiscal Year Ended
                September 30, 1995 (12/23/1996) 1 Recommendation and $166,523 Unresolved
1998-A-0386     Federated States of Micronesia, National Government, Fiscal Year Ended
                September 30, 1996 (03/31/1998) 23 Recommendations and $383,920 Unresolved
1999-A-0189     Federated States of Micronesia, National Government, Fiscal Year Ended
                September 30, 1997 (01/12/1999) 11 Recommendations Unresolved
2000-A-0139     Federated States of Micronesia, National Government, Fiscal Year Ended
                September 30, 1998 (12/10/1999) 19 Recommendations and $97,396 Unresolved
2001-A-0346     Federated States of Micronesia, National Government, Fiscal Year Ended
                September 30, 1999 (05/02/2001) 28 Recommendations and $97,299 Unresolved
2001-A-0490     College of Micronesia-Federated States of Micronesia, Fiscal Year Ended
                September 30, 2000 (09/06/2001) 1 Recommendation Unresolved

Chuuk

1991-A-0505     Chuuk State Government, Fiscal Year Ended September 30, 1989 (02/20/1991)
                1 Recommendation and $665,817 Unresolved
1992-A-0519     Chuuk State Government, Fiscal Year Ended September 30, 1990 (02/25/1992)
                1 Recommendation and $1,940,938 Unresolved
1994-A-0374     State of Chuuk, Federated States of Micronesia, Fiscal Year Ended
                September 30, 1992 (02/28/1994) 15 Recommendations Unresolved

Kosrae

1994-A-0367     State of Kosrae, Federated States of Micronesia, Fiscal Year Ended (02/24/1994)
                9 Recommendations Unresolved

Pohnpei
1991-A-0398     Pohnpei State Government, Fiscal Year Ended September 30, 1989 (02/04/1991)
                1 Recommendation and $98,216 Unresolved
1994-A-0527     State of Pohnpei, Federated States of Micronesia, Fiscal Year Ended
                September 30, 1992 (04/19/1994) 1 Recommendation and $2,764 Unresolved

Yap
1994-A-0371     State of Yap, Federated States of Micronesia, Fiscal Year Ended
                September 30, 1992 (02/25/1994) 1 Recommendation Unresolved

Guam
2000-A-0195     Government of Guam, Fiscal Year Ended September 30, 1998 (01/25/2000)
                67 Recommendations and $2,305,544 Unresolved
2001-A-0289     Government of Guam, Fiscal Year Ended September 30, 1999 (03/26/2001)
                35 Recommendations and $3,147,789 Unresolved




  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        68
                                              Return to
                                          Table of Contents
Appendix 8 (continued)


Republic of the Marshall Islands
2001-A-0029         Republic of the Marshall Islands, Fiscal Year Ended September 30, 1999 (10/30/2000)
                    28 Recommendations and $2,298,000 Unresolved
2001-A-0498         Republic of the Marshall Islands, Fiscal Year Ended September 30, 2000 (09/17/2001)
                    49 Recommendations and $840,522 Unresolved

Republic of Palau
1992-A-0368         Palau Community Action Agency, Fiscal Year Ended September 30, 1990
                    (01/24/1992) 1 Recommendation and $2,593 Unresolved
1992-A-0885         Republic of Palau, Fiscal Year Ended September 30, 1989 (06/05/1992)
                    1 Recommendation and $40,262 Unresolved
1993-A-1053         Palau Community Action Agency, Fiscal Year Ended September 30, 1991
                    (05/11/1993) 1 Recommendation Unresolved
1993-A-1629         Republic of Palau, Fiscal Year Ended September 30, 1990 (09/30/1993)
                    1 Recommendation and $401,843 Unresolved
1994-A-0499         Republic of Palau, Fiscal Year Ended September 30, 1991 (04/06/1994)
                    1 Recommendation and $517,693 Unresolved
1994-A-0882         Republic of Palau, Fiscal Year Ended September 30, 1992 (06/27/1994)
                    1 Recommendation and $4,085 Unresolved
1998-A-0130         Republic of Palau, Fiscal Year Ended September 30, 1996 (11/19/1997)
                    19 Recommendations Unresolved
1998-A-0176         Palau Community Action Agency, Fiscal Year Ended September 30, 1994
                    (12/12/1997) 15 Recommendations and $4,769 Unresolved
1998-A-0177         Palau Community Action Agency, Fiscal Year Ended September 30, 1995
                    (12/12/1997) 12 Recommendations and $43,843 Unresolved
1999-A-0037         Republic of Palau, Fiscal Year Ended September 30, 1997
                    (10/20/1998) 21 Recommendations and $1,029,762 Unresolved
1999-A-0960         Palau Community Action Agency, Fiscal Year Ended September 30, 1997
                    (09/30/1999) 1 Recommendation Unresolved
2000-A-0000         Republic of Palau, Fiscal Year Ended September 30, 1998 (10/05/1999)
                    14 Recommendations and $424,084 Unresolved
2000-A-0393         Palau Community Action Agency, Fiscal Year End September 30,1998
                    (04/24/2000) 6 Recommendations Unresolved
2001-A-0008         Republic of Palau, National Government, Fiscal Year Ended September 30, 1999
                    (10/17/2000) 1 Recommendation and $28,888 Unresolved
2001-A-0063         Palau Community College, Fiscal Year Ended September 30,1999
                    (12/04/2000) 14 Recommendations Unresolved
2001-A-0261         Palau Community Action Agency, Fiscal Year Ended September 30, 1999
                    (03/05/2001) 10 Recommendations Unresolved
2001-A-0521         Republic of Palau National Government, Fiscal Year Ended September 30, 2000
                    (09/21/2001) 1 Recommendation Unresolved

Virgin Islands
1998-A-0154         Government of the Virgin Islands, Fiscal Year Ended September 30, 1994
                    (12/02/1997) 1 Recommendation and $632,247 Unresolved

  Semiann ual R
  Semiannual  Reepor
                 portt to the Cong
                              Congrr ess: October 1, 2001 - Mar
                                                            Marcch 31, 2002
                                        69
                                           Return to
                                       Table of Contents
                                        Appendix 9



                                                                                     Page
Inspector General Act of 1978, as amended

Section 4(a)(2)         Review of Legislation and Regulations                       N/A*

Section 5(a)(1)         Significant Problems, Abuses, and Deficiencies               3-26

Section 5(a)(2)         Recommendations for Corrective Action with Respect
                        to Significant Problems, Abuses, and Deficiencies            3-26

Section 5(a)(3)         Significant Recommendations from Agency's Previous
                        Reports on which Corrective Action has not been
                        Completed                                                   53-57

Section 5(a)(4)         Matters Referred to Prosecutive Authorities and Resulting
                        Convictions                                                    ii

Section 5(a)(5)         Matters Reported to the Head of the Agency                  N/A*

Section 5(a)(6)         List of Audit Reports Issued during the Reporting Period    28-47

Section 5(a)(7)         Summary of Significant Reports                               3-26

Section 5(a)(8)         Statistical Table - Questioned Costs                           50

Section 5(a)(9)         Statistical Table - Recommendations that Funds be
                        Put to Better Use                                              51

Section 5(a)(10)        Summary of Audit Reports Issued before the
                        Commencement of the Reporting Period for which
                        no Management Decision has been made                        58-61

Section 5(a)(11)        Significant Revised Management Decisions made
                        during the Reporting Period                                 N/A*

Section 5(a)(12)        Significant Management Decisions with which the
                        Inspector General is in Disagreement                        N/A*

Section 5(a)(13)        Information Described Under Section 05(b) of the Federal
                        Financial Management Improvement Act of 1996                N/A*




*N/A: Nothing to report this period.




 Semiann ual R
 Semiannual  Reepor
                portt to the Cong
                             Congrr ess: October 1, 2001 - Mar
                                                           Marcch 31, 2002
                                       70
                                Return to
                            Table of Contents




                              General Information




Send Requests for Publications to:


U.S. Department of the Interior          (202) 219-3841
Office of Inspector General
1849 C Street, NW
Mail Stop 5341, MIB
Washington, D.C. 20240



Facsimile Number:                        (202) 208-4998



World Wide Web Site:                     www.oig.doi.gov
                                Return to
                            Table of Contents


                           Illegal or Wasteful Activities
                               Should be Reported to
                           the Office of Inspector General


                             Internet/E-Mail Address
                  http://www.oig.doi.gov/investigations/hotline.shtml



                     Within the Continental United States

U.S. Department of the Interior                     Our 24-hour
Office of Inspector General                         Telephone HOTLINE
1849 C Street, N.W.                                 1-800-424-5081 or
Mail Stop 5341, MIB                                 (202) 208-5300
Washington, D.C. 20240

                                                    Facsimile Number
                                                    202-208-6023

                                                    TDD for hearing impaired
                                                    (202) 208-2420

                     Outside the Continental United States


                                   Pacific Area Office

U.S. Department of the Interior                     (671) 647-6051
Office of Inspector General
Guam Field Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96913

                                  Caribbean Area Office

U.S. Department of the Interior                     (340) 774-8300
Office of Inspector General
Federal Building & U.S. Courthouse
Veterans Drive, Room 207
St. Thomas, VI 00802
U.S. Department of the Interior
  Office of Inspector General
      1849 C Street, N.W.
   Washington, D.C. 20240
          www.doi.gov
         www.oig.doi.gov
